<html>
<title> - DEMOCRACY IN HONG KONG</title>
<body><pre>[Senate Hearing 108-480]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-480

                         DEMOCRACY IN HONG KONG

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MARCH 4, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



94-104              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Bork, Ms. Ellen, deputy director, The Project for a New American 
  Century, Washington, DC........................................    43
    Prepared statement...........................................    44
Brownback, Hon. Sam, U.S. Senator from Kansas, opening statement.     1
Feinerman, Prof. James V., James M. Morita Professor of Asian 
  Legal Studies, Georgetown University Law Center, Washington, DC    29
    Prepared statement...........................................    31
Law, Mr. Yuk-kai, Human Rights Monitor Director, Hong Kong.......    20
    Prepared statement...........................................    22
Lee, Mr. Cheuk-yan, Member of Legislative Council, Hong Kong.....    17
    Prepared statement...........................................    18
Lee, Mr. Martin, Member of Legislative Council, Hong Kong........    11
    Prepared statement...........................................    13
Schriver, Mr. Randall G., Deputy Assistant Secretary of State, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State, Washington, DC..........................................     2
    Prepared statement...........................................     6
Tkacik, Mr. John J., Jr., Research Fellow in China Policy, The 
  Heritage Foundation, Washington, DC............................    46
    Prepared statement...........................................    48
To, Mr. James, Member of Legislative Council, Hong Kong..........    15

                                 (iii)

  

 
                         DEMOCRACY IN HONG KONG

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                           U.S. Senate,    
                 Subcommittee on East Asian
                               and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee), presiding.
    Present: Senator Brownback.


               opening statement of senator sam brownback


    Senator Brownback. The hearing will come to order.
    Today's hearing on Hong Kong is the first since 1999 and 
only the second hearing since the transfer of sovereignty in 
1997. This hearing will review how Hong Kong functions as a 
special administrative region of China and it will examine U.S. 
policy with respect to the evolving situation in Hong Kong.
    The future of Hong Kong is of personal interest to me. I 
enjoyed my trip to Hong Kong earlier this year where I had a 
chance to meet with some of our witnesses today. The future of 
Hong Kong is also of great interest to this committee, as well 
as other Members of the Senate as a whole.
    The source of U.S. policy on Hong Kong is the 1992 Hong 
Kong Policy Act. That act allowed the United States to treat 
Hong Kong as a distinct entity, even as we recognize that it is 
legally a part of China. Hong Kong is a part of China, but its 
system of government is understood to be distinct from the 
system that governs the rest of the nation.
    Our strong relationship with Hong Kong is based on this 
distinction. Hong Kong is a key trading partner because of its 
commitment to free markets. Hong Kong's open society is a 
valuable example to other Asian peoples experimenting with 
democratic reforms. Hong Kong is also a valuable ally on the 
war on terrorism. These characteristics illustrate why the 
United States supports a government in Hong Kong that is based 
on democracy.
    In recent days, we have seen Beijing use official media 
sources to reject moves toward universal suffrage. Beijing also 
has begun to question the patriotism of those favoring 
democratic reforms. The reasons for these statements are 
unclear to me, but whatever the reasons for Beijing's concerns, 
they are unfounded. Patriotism and democracy go hand in hand, 
and Beijing has nothing to fear from the development of 
democracy in Hong Kong. After all, the people of Hong Kong are 
not demanding independence and neither is the United States. In 
fact, last July's demonstrations in Hong Kong, as well as those 
in January, clearly indicate that people can air their 
grievances without undermining stability.
    Today's hearing is first and foremost a discussion of U.S. 
policy. We will discuss how Hong Kong can build its democracy 
and what role the United States should play in that 
development. Hong Kong's residents continue to demonstrate the 
power of the people, and that power should be affirmed through 
democratic processes that make all government officials 
accountable to a voting public.
    An essential part of this discussion is the Basic Law, the 
document that governs the Hong Kong Special Administrative 
Region. There is much confusion about the Basic Law and I hope 
we can have a meaningful discussion of it today. Whether the 
Basic Law can help us reach the goal of real democracy in Hong 
Kong remains an open question, but one thing should be clear: 
our goal of democratic reform should be met sooner rather than 
later.
    In the end, Beijing must not obscure the meaning of two 
systems in its ``one country, two systems'' formula. The U.S. 
relationship with Hong Kong is based on the understanding that 
it will have a separate system of government and our Hong Kong 
Policy Act declares democratization to be a fundamental 
principle for U.S. Hong Kong policy. If there is one thing 
everyone can take from today's hearing, I hope it would be 
this: If Hong Kong is forced away from autonomy and 
democratization, U.S. policy will be forced to change as well.
    We have three panels that will be presenting today on this 
topic and on this discussion. We will have questions back and 
forth. The first panel features Mr. Randy Schriver, who is 
Deputy Assistant Secretary of State for East Asian Affairs at 
the State Department. I look forward to his testimony.
    Mr. Schriver, welcome to the committee. We are delighted 
you are here. Your full written testimony will be put in the 
record. You are free to summarize if you would choose to do so.

STATEMENT OF RANDALL G. SCHRIVER, DEPUTY ASSISTANT SECRETARY OF 
        STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS

    Mr. Schriver. Thank you, Mr. Chairman, and thank you for 
the opportunity to speak to you today about a very important 
topic at a very important time. We are here to talk about the 
future of Hong Kong and, in particular, the prospects for 
democratic development.
    The underlying goal associated with U.S. policy has 
remained consistent both before reversion and after, and that 
is to help the people of Hong Kong preserve their way of life 
and their prosperity, as well as to contribute to political 
progress there. This is good for Hong Kong but also promotes 
U.S. interests.
    We view Hong Kong today as still a work in progress. It is 
a unique political entity, established through source documents 
that we know, the Joint Declaration of 1984, the PRC/UK Joint 
Declaration, the subsequent promulgation of the Basic Law, but 
it is also defined as an entity after nearly 7 years of 
experience of the Hong Kong Government running most of its day-
to-day affairs on its own.
    So this is a very sui generis situation we have with Hong 
Kong. We have embraced this unique status, Mr. Chairman, as you 
mentioned, through our legislation which does give us the legal 
foundation to treat Hong Kong in a special way as an entity 
distinct from the PRC, but in a special way with respect to 
things like export controls. So this is unique. We have 
embraced that unique nature, but yet it is a work in progress, 
particularly when we start to look at questions related to the 
political evolution of Hong Kong.
    What we can say, as a consequence thus far in the 
experience of the last 7 years, is that Hong Kong does remain a 
very free economy. Civil liberties have been protected. There 
remains freedom of the press, freedom of assembly, and strong 
rule of law. Though political freedoms continue to lag--and 
this is something that we will spend I think the majority of 
our time on--these liberties and rights that Hong Kong 
continues to enjoy are in fact very fundamental human freedoms. 
I would note also that they are necessary elements, though not, 
of course, sufficient in and of themselves, but necessary 
elements to sustaining a vibrant democracy so when the 
political elements follow, these other strong elements are 
already in place and will be to the benefit of the people of 
Hong Kong.
    We do have profound interests in Hong Kong. There are over 
50,000 Americans who work and live there, over 1,000 American 
firms operate there. Hong Kong is our 14th largest trading 
partner. There are significant foreign-directed investment of 
U.S. origin, and this is a very strong trade and economic 
relationship. Hong Kong is a modern, sophisticated economy, is 
also a strong partner of ours in regional and international 
economic and trade fora. They have been a partner, for example, 
in promoting economic openness in the Doha Round. I think these 
elements are well known and often cited, the economic and trade 
aspects.
    I think it is also important to note, as you did, Mr. 
Chairman, in your statement, that we have been developing a 
bilateral relationship in areas that are very key to U.S. 
security interests as well. Hong Kong as a port is the No. 1 
source of U.S.-bound sea containers. So their decision to join 
the Container Security Initiative and the implementation 
subsequent to that has been key to protecting our homeland, and 
those that have been involved with that program would tell you 
that Hong Kong is a model for those that are also beginning the 
process of implementing the Container Security Initiative.
    Hong Kong has been a key partner in the war on terror. 
Particularly, they have played a very valuable role in counter-
terrorism finance efforts, and they, of course, chaired the 
Financial Action Task Force in 2003, which plays a key role in 
curbing financial resources for terrorists.
    Our law enforcement cooperation across the board is 
excellent. Hong Kong continues to be a port of call for U.S. 
ships, and Hong Kong's autonomous and effective system of 
export controls allows us to continue to rely on Hong Kong as a 
partner in the protection of sensitive technologies, not 
allowing those technologies to proliferate to places that they 
should not go.
    So it is one of the freest cities in the world, and in fact 
the Index of Economic Freedom, which the Heritage Foundation 
and the Wall Street Journal publish annually, ranks Hong Kong 
as No. 1 as the freest and most open economy in the world out 
of a list of 155 economies, and that is a place it has enjoyed 
for a decade, the top place. So this creates a comparative 
advantage for Hong Kong as an open economy. It also is to our 
advantage because many American firms choose Hong Kong as its 
Asia base of operation because of that openness and because 
they can count on the rule of law there.
    Of course, the people of China as well also benefit from 
Hong Kong, and this is not just in the direct economic sense 
and the development and modernization that China has enjoyed 
through its relationship with Hong Kong, but it is also due to 
the fact that Hong Kong and its institutions are an excellent 
model for China to learn from.
    But neither the Economic Freedom Indexes nor the economic 
openness address the questions of political freedom, and that 
is really where I would like to spend the rest of my time in 
the statement.
    Mr. Chairman, you noted that the events of the last year 
have amply demonstrated the desire of the people of Hong Kong 
for a greater voice and to advance the democratization process 
that is their right under the Basic Law. The United States has 
been very clear. Our longstanding policy is that Hong Kong 
should move toward greater democratization and universal 
suffrage. The Hong Kong people have shown their desire for this 
and they have shown their strong interest in protecting their 
civil liberties, most notably last July the half a million 
people--Secretary Powell 2 days ago called them the brave 
500,000 people--who took to the streets, who peacefully 
protested the national security legislation which they feared 
would impact their civil liberties, and again on New Years Day 
this year with 100,000 demonstrators also voicing their desires 
for greater democratization and political progress.
    What is important at this juncture is that the Hong Kong 
Government consult fully with the people of Hong Kong on 
measures to move forward on democratization and toward a 
government that more fully represents the people of Hong Kong. 
The Hong Kong Government did the right thing last year when 
they pulled the legislation related to national security. They 
listened to the voice of the people. It is important now that 
they listen to the people on other aspects of political 
development and primarily we are speaking of the articles that 
relate to democratization and universal suffrage, specifically 
articles 45 and 68 of the Basic Law, which make clear that the 
ultimate aim is universal suffrage.
    Hong Kong is clearly ready for this. We have seen progress 
at a more local level. We noted the November elections for the 
District Council and the 400 seats there. This is the level, of 
course, where the roots of the institution of democracy are 
planted. Hong Kong has this experience with the District 
Council elections. Hong Kong is a very sophisticated, mature, 
cosmopolitan society. They are clearly ready to begin this 
process of consultation and move in the direction we all hope 
they will.
    China has a vital stake in Hong Kong's evolution. If it is 
true, as Premier Wen Jiabao said in Bali last year, that Hong 
Kong people can govern Hong Kong well, then it is only natural 
that the people of Hong Kong should have a voice in the 
development of Hong Kong's democracy. What they are asking for, 
as you noted, Mr. Chairman, is not a separate Hong Kong, not a 
separate status or independence. What they are asking for is 
for a voice and for a government that is responsive to their 
will and what was promised to them and what is their right in 
the Basic Law.
    Today's disagreements in Hong Kong are not simply about 
policy. They are a lot about process and about how to govern. 
They are clearly not about whether one person or one group is 
imbued with more or less patriotic fervor. Many residents in 
Hong Kong feel as though their future and their future success 
is best secured by political reform. An unproductive debate 
about who is more patriotic or less patriotic or if there is 
foreign interference in Hong Kong's development is at best a 
diversion but, more troubling, could actually be destructive to 
Hong Kong's political evolution and political progress.
    Our view is that the people of Hong Kong have made this 
point repeatedly and have expressed their desires very clearly 
in the past 8 months, and it is time for the government of Hong 
Kong to listen and it is time for China to listen as well. 
Important decisions and choices will be made in Hong Kong, but 
it is also true that important decisions and choices will be 
made in Beijing with respect to Hong Kong's future. Chinese 
sovereignty is a reality that will affect and heavily influence 
the success of those that are dedicated to democracy in Hong 
Kong.
    Certainly some of the recent statements attributed to 
authoritative voices in Beijing reflect a profound discomfort 
with the development of democracy in Hong Kong. Some in China, 
as I made reference to earlier, have gone so far as to say that 
the demonstrations last July and on New Years Day were the 
result of a shadowy foreign element or foreign hand. We feel 
this reflects a very fundamental misreading of the role of 
public debate in open society. We feel, of course, that public 
debate serves to promote the kind of development that will, in 
fact, secure Hong Kong's prosperity, but also the stability 
which Beijing talks about. The key to stability is, in fact, 
giving the people a voice and providing them a government that 
is responsive to their will, as is their right under the Basic 
Law.
    These voices notwithstanding, there is one thing on which 
we can all agree. We want, and we do need, Hong Kong to 
succeed. Again, in our view the best way to ensure that success 
is to continue the movement toward democratization. While 
respecting Chinese sovereignty, we make these very points in a 
straightforward manner in Hong Kong and in Beijing. It is 
important that China understand our interests here and that our 
interests are in the preservation of Hong Kong's current 
freedoms, but also in the continued democratization of Hong 
Kong. U.S.-China relations will suffer if the cause of freedom 
and democracy in Hong Kong suffers. That outcome would not be 
good for people in Hong Kong, in Beijing, or in the United 
States.
    In conclusion, despite all the changes in the past 11 
months, what has not changed is our interest in Hong Kong and 
our fundamental interest in the protection of human rights and 
the promotion of democratic institutions. Hong Kong residents 
can be proud of the work that they have done to try to secure 
political progress and achieve political progress for their 
future and what they have achieved.
    As Secretary Powell stated 2 days ago at Heritage's B.C. 
Lee lecture when he spoke about the brave half million people, 
it is important to all of those who cherish democracy that Hong 
Kong remain open and tolerant and that its political culture 
continue to thrive under the Basic Law with China. This 
administration will continue to communicate this view to Hong 
Kong, to the people, the government there, as well as the 
central authorities in Beijing.
    With that, Mr. Chairman, I look forward to your questions.
    [The prepared statement of Mr. Schriver follows:]

               Prepared Statement of Randall G. Schriver

    Mr. Chairman, thank you. I appreciate the opportunity to testify 
before the Committee today about a subject that engages Americans and 
America's interests directly: the future of Hong Kong, including the 
prospects for democratic development in Hong Kong.
    The underlying goal associated with U.S. policy toward Hong Kong 
before and after the 1997 reversion has been consistent: it is based on 
our desire to help the people of Hong Kong preserve their prosperity 
and way of life. This also promotes important U.S. interests.
    Hong Kong is a work in progress and the people of Hong Kong face 
the challenge of redefining their economic and political structure. The 
1984 Joint Declaration of the UK and the PRC, the subsequent 
promulgation of the Basic Law, and Hong Kong's sustained, autonomous 
management of its day-to-day affairs laid a foundation for Hong Kong's 
continued economic success, as well as its political development. The 
United States embraces and supports Hong Kong's uniqueness through 
passage and implementation of the Hong Kong Policy Act of 1992 which 
established the legal authority to treat Hong Kong as an entity 
distinct from the People's Republic of China.
    As a consequence of these agreements and legislation, Hong Kong in 
the years since reversion has continued to enjoy economic freedoms, 
civil liberties, freedom of press and assembly, and strong rule of law. 
Though some political freedoms continue to lag--a trend I will address 
in detail later on--the liberties and rights Hong Kong has enjoyed 
contribute to the preservation of fundamental human freedoms. I might 
also add that they are necessary, though not sufficient in and of 
themselves, to sustaining a vibrant democracy.
    America has a profound interest in commitment to the success of 
Hong Kong. Some 50,000 Americans live and work there. Hong Kong hosts 
more than 1,000 American firms there, 600 of which have regional 
operational responsibilities and employ a quarter of a million people. 
Cumulative American foreign direct investment in Hong Kong, a region 
with nearly seven million residents, totaled over $35 billion at the 
end of 2002. We also have considerable trade interests in Hong Kong. 
Total exports of goods and services amounted to $16.8 billion in 2002, 
while imports of the same reached approximately $13.3 billion, making 
Hong Kong our 14th largest trading partner.
    With global trade in goods at $408 billion, Hong Kong has a vital 
interest in liberalizing trade internationally. During recent trade 
discussions at Cancun, we counted Hong Kong among the most vocal and 
effective supporters of open market principles, and, more generally, 
Hong Kong has been at the forefront of efforts in the Doha Round to 
reduce barriers to trade.
    Beyond the trade and investment statistics, there exists an 
evolving but vital bilateral cooperation with Hong Kong authorities 
which greatly enhances America's security. Hong Kong, the single 
largest source of U.S.-bound sea containers, joined the Container 
Security Initiative in September 2002 and made its program operational 
eight months later in May 2003. In joining the CSI, the Hong Kong 
Government underscored our common interest in protecting the smooth 
functioning of the global trading system in the face of terrorist 
threats. In addition to CSI, Hong Kong, the second largest financial 
market in Asia, has worked closely with us and through the premier 
global institution for attacking money laundering, the Financial Action 
Task Force, which Hong Kong chaired in 2003, to find ways to cut off 
terrorist access to financial sources. Law enforcement cooperation, 
across-the-board, has been excellent and targeted at protecting the 
safety and well-being of the people of Hong Kong and America alike. And 
Hong Kong has been a welcoming port-of-call for visits by American 
ships; the carrier Kitty Hawk and its battle group will visit Hong Kong 
later this week.
    I would also note that Hong Kong has an effective, autonomous, and 
transparent export control regime that is strengthened through pre-
license checks and post-shipment verification of Hong Kong companies by 
U.S. Department of Commerce representatives. During the mid-February 
visit to Hong Kong by Commerce Assistant Secretary Julie Myers, Hong 
Kong government officials agreed to work with us to strengthen our 
already close cooperation. They well understand the importance of 
ensuring that the basic infrastructure supporting our export control 
cooperation is in good shape. Our exports of high technology 
commodities to Hong Kong depend on the integrity of Hong Kong's 
separateness and on the effective and vigorous enforcement of Hong 
Kong's export control rules and regulations.
    What this all means is that in most respects the people of Hong 
Kong remain in charge of the important aspects of their destiny. It is 
one of Asia's freest cities and on the Index of Economic Freedom, a 
measure that was co-published on January 9 by the Heritage Foundation 
and The Wall Street Journal, Hong Kong ranks at the top of a list of 
155 economies surveyed--and has been in the number one spot for ten 
years. This economic openness matters. It is one of the reasons that 
many American firms choose Hong Kong as their Asian base. They can 
count on the rule of law to protect their investments and promote their 
unfettered operation.
    As a result, the people of Hong Kong look forward to a future based 
on a continuation of today's freedoms and progress toward 
democratization. The Chinese government in Beijing itself has said that 
in the future, the people of Hong Kong will govern themselves and will 
hold their leaders accountable.
    Hong Kong's openness, its international status, its welcoming 
attitude to business people throughout the world, its active 
participation in economic organizations, including the World Trade 
Organization--these are elements of Hong Kong's comparative advantage.
    The people of mainland China benefit from Hong Kong's openness as 
well. Hong Kong has played a key role in helping alter the landscape in 
China, especially in South China, where ten million workers or more in 
at least 65,000 Hong Kong-run factories are gainfully employed and 
learning how to do business with an international focus, and according 
to free market principles. Hong Kong provides access to capital markets 
and listings on the Hong Kong stock exchange for PRC companies that are 
also becoming more international in their orientation everyday. And 
Hong Kong institutions such as the Independent Commission Against 
Corruption are a model for the PRC government's own efforts in dealing 
with corrupt practices.
    But neither the Economic Freedom Index nor the economic openness of 
Hong Kong measures political freedom and it is this subject and the 
issue of democracy that I want to address in a bit more detail.
    Events of the past year have amply demonstrated the desire of the 
people of Hong Kong to advance the democratization process, as is their 
right under the Basic Law. The United States has been very clear: our 
longstanding policy is that Hong Kong should move toward greater 
democratization and universal suffrage. The Hong Kong people have shown 
their desire for movement on this issue and the protection of civil 
liberties. Last July 1, a half million Hong Kongers peacefully 
protested national security legislation (Article 23), subsequently 
withdrawn by the government, that had the potential to restrict their 
civil liberties. The people of Hong Kong spoke, eloquently and 
peacefully, of their desire for a more effective, more democratic, more 
responsive government. The New Year's Day 2004 demonstration of 100,000 
people in Hong Kong was another reflection of the desire of the Hong 
Kong people to advance the democratization process.
    What is most important at this juncture in Hong Kong's ongoing 
evolution is for the Hong Kong Government to consult fully with the 
public on measures to move toward a government that more fully 
represents the interests of the people. We applauded the Hong Kong 
Government's willingness last year, in the aftermath of the July 
demonstrations, to consult with the governed before moving forward with 
the proposed national security legislation. We think it is just as 
important now to listen to the public with regard to enlarging Hong 
Kong's democratic experiment, as envisioned in Articles 45 and 68 of 
the Basic Law, which make clear the ultimate aim of universal suffrage. 
In fact, Hong Kong's Secretary for Constitutional Affairs Stephen Lam 
said on October 20, 2003 that ``we need to listen to views in society 
on what proposals we should consider over the constitutional reform of 
2007.'' I can think of no better argument for effective and continuing 
public debate than this statement.
    As Secretary Powell said in hearings on the budget in January, ``We 
join the people of Hong Kong in urging open and frank discussion to 
promote constitutional reform and democratization through electoral 
reform and universal suffrage.''
    In this context, we commend the Hong Kong Government's conduct of 
late November elections for the District Council's 400 seats as 
showcasing democracy at its best--at the grass roots where people live 
and work and their representatives deal with mundane issues of popular 
concern--from collecting garbage to the quality of the local school 
systems. It is at this level that the roots of the institution of 
democracy are planted, where political leaders emerge and are trained 
and help build the kind of public consensus and unity that is necessary 
in the life of any democratic society. Strengthening and encouraging 
these building blocks of democracy will strengthen and expand the 
quality of civic and political engagement in Hong Kong.
    China has a vital stake in Hong Kong's evolution. In fact, Premier 
Wen Jiabao recognized just that in remarks he made last October in 
Bali. If, as the Premier said then, ``Hong Kong people can govern Hong 
Kong well,'' then it is only natural that the people of Hong Kong 
should have a voice in the development of Hong Kong's democracy. What 
they are asking, it seems clear to me, is not for a Hong Kong separate 
from the mainland; that issue was long settled before reversion in 
1997. Hong Kongers are asking for government that is more responsive to 
the will of the people.
    Democracy is predicated on the assumption that there will be 
disagreements, and disagreements are settled in democracies by the 
ballot box. Today's disagreements in Hong Kong are over how best to 
govern, not on whether one person or one group is imbued with more or 
less patriotic fervor. I have little doubt that the people of Hong 
Kong, government and citizens alike, are dedicated to maintaining 
prosperity and stability in the context of the arrangements made for 
the return of Hong Kong to Chinese sovereignty in 1997. Many of them 
believe Hong Kong's future is best served by reform of the political 
structure and better communication between government and the governed. 
An unproductive debate on who is the most patriotic or whether some 
people in Hong Kong are being influenced by outsiders is the last thing 
that men and women of goodwill should engage in; what could work best 
is for all parties, across the political spectrum in Hong Kong, to 
forge responsible positions that contribute to the resolution of Hong 
Kong's governing structure.
    Our view is that the people of Hong Kong have made that point 
repeatedly in the past eight months to their government and that it is 
time for the governments in Hong Kong--and in China--to listen to them.
    Important decisions and choices must be made by the authorities in 
Hong Kong. Chinese policymakers in Beijing will also make decisions 
regarding Hong Kong's future. Chinese sovereignty is a reality that 
will heavily influence the success of those dedicated to democracy in 
Hong Kong. Certainly some of the recent statements attributed to 
authoritative voices in Beijing reflect a profound discomfort with the 
development of democracy in Hong Kong. Some in China have gone so far 
as to suggest that the peaceful demonstrations in Hong Kong in support 
of universal suffrage are inspired by shadowy, foreign elements. This 
notion reflects a fundamental misreading of the role of public debate 
in an open society, which in fact serves to promote the kind of 
political, economic, social and civic development that is essential to 
Hong Kong's stability and prosperity and, we believe, to China's 
interests as well.
    Those voices notwithstanding, there is one thing on which we all 
can agree--we want and need Hong Kong and its people to succeed. In our 
view, the best way to ensure Hong Kong's sustained success is continued 
movement toward democratization. Modern political rights and freedoms 
are essential to the success of a cosmopolitan and sophisticated 
society as found in Hong Kong. These attributes undeniably and 
irrevocably go together.
    While respecting Chinese sovereignty, we make these very points in 
a candid, straightforward manner to our interlocutors in Hong Kong and 
Beijing. It is important that China understand our strong interest in 
the preservation of Hong Kong's current freedoms, as well as our 
interest in the continued democratization of Hong Kong as called for in 
the Basic Law. U.S.-China relations will suffer if the cause of freedom 
and democracy suffers in Hong Kong. None of us--in Hong Kong, in 
Beijing, in Washington or elsewhere--would benefit from such an 
outcome.
    Before I conclude, Mr. Chairman, let me quote from the 2003 Hong 
Kong Policy Act Report which reviewed trends as of April 1, 2003, well 
before the most recent ferment in Hong Kong. Despite all the changes of 
the past eleven months, what has not changed is our interest in Hong 
Kong. in ``the protection of human rights and the promotion of 
democratic institutions. Hong Kong residents share many values and 
interests with Americans and have worked to make Hong Kong a model of 
what can be achieved in a society based on rule of law and respect for 
civil liberties.''
    It is important to us and to those who respect and cherish 
democracy around the world that Hong Kong remain an open and tolerant 
society, one with a vibrant and evolving political culture. This 
Administration will continue to communicate this view to the Hong Kong 
Government, the central government authorities in Beijing and the 
people of Hong Kong.
    With that, Mr. Chairman, I would be delighted to take your 
questions.

    Senator Brownback. Thank you very much, Mr. Schriver. Thank 
you for the strong position the administration has taken. What 
the Secretary said 2 days ago in the meetings, what National 
Security Advisor Condoleezza Rice said yesterday with Mr. 
Martin Lee, the lead democracy advocates, the administration 
has been very clear and very forthright and I appreciate your 
strong position and statement on this.
    I wanted to ask you a couple of questions on it. 
Considering the ambiguity of many of the provisions in the 
Basic Law, are you satisfied that the Basic Law provides Hong 
Kong with the means to meet the democratic aspirations of its 
people? In other words, is the basis there in the Basic Law to 
move toward universal suffrage for the people of Hong Kong for 
their leadership in Hong Kong, the Legislative Council, the 
leadership just within Hong Kong?
    Mr. Schriver. I think if the Basic Law is faithfully 
implemented, the foundation is there. I think, because of the 
ambiguity, the key is what are the aspirations and the 
expectations of the people of Hong Kong and what is it that is 
being delivered to them. If there is a gap there and a 
significant gap, then we have to call into question if this is 
a foundation that is strong enough to get the kind of political 
progress that Hong Kong needs and deserves. So because of 
ambiguity, I think that is the key measure, what are the 
expectations and what is actually being delivered to them, and 
clearly there are some signs that are troubling and some 
statements that are troubling. But the very basic point, yes, 
if faithfully implemented, I believe the foundation exists.
    Senator Brownback. The administration's view is that they 
can move toward universal suffrage and indeed the Basic Law 
provides for a movement to universal suffrage for the people of 
Hong Kong.
    Mr. Schriver. Yes, sir.
    Senator Brownback. A number of people are watching, 
obviously, what takes place in Hong Kong. How is the rest of 
Asia viewing the events in Hong Kong and its public 
demonstrations for democracy? Do you get a feel from your 
position as Deputy Assistant Secretary on East Asian and 
Pacific Affairs of how this is being viewed throughout Asia?
    Mr. Schriver. I have some sense of it, Mr. Chairman. I 
think it is watched very carefully not only by those who have 
developing democratic institutions themselves, but those that 
have developing relationships with China, and they want to make 
judgments about how China will behave, how China will be 
responsive to democracies. I think throughout Asia the key 
point that has impressed people is that the economic freedoms 
have been sustained and Hong Kong as a trading partner for the 
respective Asian countries has essentially been unimpeded since 
reversion.
    But again, I think the kinds of concerns that we have about 
democratization is shared by other democracies in Asia and I 
think virtually every country is watching China, how it 
responds, if it will respond in a sophisticated manner, 
perhaps, worst case, a heavy-handed manner. People will make 
judgments about how China might behave in their own bilateral 
relationships, even though this is an internal matter from a 
Chinese perspective.
    Senator Brownback. When I was in Hong Kong in January, a 
number of statements and accusations were put forward by the 
Beijing Government. They put linkages between the development 
of the Hong Kong policy and their view and ties toward Taiwan. 
Can you articulate the view of the administration of any 
parallels or any connections between U.S. views toward Hong 
Kong and a relationship with Taiwan with the move toward 
democratization in Hong Kong?
    Mr. Schriver. Well, our support for democracy is universal, 
whether it be in Hong Kong, Taiwan, or anywhere else. We have 
been very supportive of the democratization in Taiwan. We have 
been supportive of that development. There is an election 
coming up there that is of great interest to us, but we are 
proud and we admire what they have done there.
    I think China has a certain view about the relationship 
between the development in Hong Kong and events on Taiwan 
because, of course, they would tell you that the model of ``one 
country, two systems'' was developed with Taiwan in mind prior 
to the Hong Kong experience. So they have some incentive to 
want that to succeed, to do well, so it will be an attractive 
model to Taiwan.
    I think they are two very different cases and how we manage 
the policy is very different. The similarity being, we have 
guidance from the Congress and we have policies that are 
embedded in U.S. law, but the Hong Kong Policy Act and the kind 
of relationship we are able to develop with Hong Kong I think 
is very different than the kind of relationship we develop with 
Taiwan.
    Taiwan's democratization has essentially been rapid and 
been successful, and though Beijing has certainly been 
uncomfortable with it and has adopted a posture that is at 
times threatening and coercive, for the most part Taiwan's 
democratization has been unimpeded from Beijing's intimidation. 
Again, there has been remarkable progress in less than a 
decade. Their first Presidential election was less than 10 
years ago. So this has been a rapid development and essentially 
I think unimpeded from events in Beijing.
    Senator Brownback. It has been my assertion on this issue 
that it is good for Beijing, it is good for Hong Kong, and it 
is good for the world if Hong Kong is allowed to develop on 
democratization. It sends the right signals to Taiwan, not the 
wrong signals. It will move toward more stability and attract 
probably more investment and more support for Hong Kong. And 
yet, the Beijing Government continues to fight this, even 
though there is a clear march of history toward democracy as 
well. I do not understand the reticence on the part of the 
Beijing Government. Can you give that to me in light of your 
discussions with them on this issue?
    Mr. Schriver. It is always difficult to speak with great 
clarity and specificity when you are trying to give the Chinese 
perspective on something. I think they do have an interest in 
Hong Kong succeeding and this model succeeding, but they also 
value the political control and keeping firm rudder control on 
developments.
    I think one of the ironic things is there really is so much 
that we could agree on with China on matters related to Hong 
Kong. We want it to succeed. We think Hong Kong's success would 
best be ensured through implementation of the Basic Law, which 
China would say the same, and we do want stability and 
continued prosperity in Hong Kong. Our very strong view is that 
stability is best ensured through democratization. Maybe that 
is where the divergence is, that they have a different comfort 
level with democratization, the pace and the scope, and how 
that could affect stability.
    I would posit that you are more likely to get people out on 
the streets again if people continue to feel frustrated that 
their voice is not heard, that they do not have a government 
that is responsive to them, and that there is not progress on 
implementation of these articles related to universal suffrage. 
If stability is the ultimate goal, which is not our only goal, 
but if it is part of what you are seeking, we are very clearly 
of the mind that democratization is key to that.
    Senator Brownback. Well, thank you very much for your 
position and your view, and thank you very much for the 
administration's strong statement. I hope this continues to be 
a very high priority item within the administration to press 
universal suffrage for the people of Hong Kong.
    Mr. Schriver. Thank you, Mr. Chairman.
    Senator Brownback. Our second panel includes four guests 
from Hong Kong. I would like to make it clear at this point 
that we extended invitations to officials from Hong Kong 
Progressive Alliance and the Democratic Alliance for the 
Betterment of Hong Kong to testify this afternoon. Those 
invitations were declined. We do have three members of the Hong 
Kong Legislative Council, including Mr. Martin Lee, the founder 
of Hong Kong's largest democratic party, Mr. James To, and Mr. 
Cheuk-yan Lee. In addition, we have Mr. Yuk-Kai Law, Executive 
Director of the Hong Kong Human Rights Monitor.
    Because of the number of witnesses we have today, it will 
be necessary for all witnesses to observe the time limits and 
to summarize their statements, if possible. I would note to all 
of you that your written testimony will be included in the 
record, so you are free to summarize in your presentations.
    I also want to say a thank you to all of you gentlemen for 
being here today. I know you have suffered personal name-
calling and characterizing that is completely unfair. I regret 
that you have had to go through that, and I also want to thank 
you for being here and for putting clearly as well that if you 
could go to Beijing, you would cancel your trip to Washington. 
It seems odd to me that I can go to Beijing and you cannot. I 
look forward to trying to understand a little better why that 
dichotomy exists.
    With that, I am delighted to have each of you here. Mr. 
Martin Lee, we look forward to hearing your testimony first and 
then we will hear the other panelists in the order I introduced 
them.

STATEMENT OF MARTIN LEE, MEMBER, LEGISLATIVE COUNCIL, HONG KONG

    Mr. Martin Lee. Thank you, Mr. Chairman, for giving us an 
opportunity to come to your country and explain to you what is 
actually happening in Hong Kong.
    I will start with the history of democracy in Hong Kong. It 
really only started in 1985 when the legislature had our first-
ever elected members. Now, but in that year there were not 
democratically elected legislators. I was elected by the 
lawyers, and I remember after the votes came in and I was 
declared the winner, I held my first-ever press conference as a 
politician, and I was asked this question. What would you like 
to do now that you are in the Legislative Council? I said, very 
simple. Next time, that is, 1988, I do not want to be elected 
by the lawyers. I wanted to be elected by the people of Hong 
Kong. That was my first democratic dream. It was dashed because 
there were no democratic elections in 1988. It only came in 
1991 after the Basic Law was promulgated on the 4th of April 
1990. On that occasion I did run for the Hong Kong island and I 
was elected.
    Then we look forward, Mr. Chairman, and I have to come, 
therefore, to the Basic Law because that is our mini-
constitution. It was passed exactly 10 months after the tragic 
events of Tiananmen Square on the 4th of June 1989. But in 
spite of that, the way forward was clearly set out in article 
45 and article 68 of the Basic Law which prescribed very 
clearly that the ultimate aim is to have the Chief Executive to 
be elected by universal suffrage and likewise the entire 
legislature. Then Annex I says we could actually have a Chief 
Executive to be democratically elected in the year 2007 and the 
entire legislature in 2008.
    This is the ongoing debate in Hong Kong. Mr. Chairman, you 
should have watched the wonderful demonstration on the 1st of 
July last year. It was, I suggest, the most dignified 
demonstration the world has ever seen. The people were angry 
when they went to the demonstration, angry with the government, 
but when they saw there were so many other people here, they 
became very happy. I was there, Mr. Chairman, and I saw 
happiness written on every face. It was a dignified 
demonstration because people had to wait on an average of 3 
hours, at least, before they could actually start the march, 
but they were patient. There was not any angry word spoken.
    The question now is what do we do now about democracy in 
Hong Kong. The Beijing Government thought at first that if they 
would give a lot of economic benefit to the Hong Kong 
community, that would dampen the enthusiasm for democracy. But 
it did not turn out that way.
    On the 23rd of November last year at our District Council 
elections, the pro-Beijing parties were crushed. We won with a 
very, very large margin that we did not expect to be so. 
Beijing became worried, extremely worried, that in the 
forthcoming Legislative Council election on the 12th of 
September this year the democratic camp will be able to muster 
a majority in the Legislative Council.
    Beijing has, therefore, ordered the Hong Kong Government to 
stop everything. The Beijing Government does not even want the 
Hong Kong Government to announce a time table as to when the 
Hong Kong Government will consult with the people of Hong Kong 
as to the way forward. The general perception, therefore, Mr. 
Chairman, is that there is too much intervention from Beijing 
in this very internal affair in Hong Kong. Namely, do the 
people of Hong Kong want earlier democracy or later?
    But this should not be. The Beijing leaders should have no 
fear about the results of democracy in Hong Kong. Nobody in 
Hong Kong wants independence for Hong Kong, unlike Taiwan, and 
our party, the democratic party, has always supported the one 
China policy. We strongly support the ``one country, two 
systems'' policy enshrined in both the Joint Declaration and 
the Basic Law.
    There are varying signals in the recent weeks, but we are 
confident of the long-term future because we have confidence in 
the new leaders in Beijing, President Hu Jintao and Premier Wen 
Jiabao. Both of them have traveled overseas recently and both 
of them have spoken of their desire and ambition to bring about 
democracy to China. It may not be the same sort of democracy 
that you, Mr. Chairman, are used to, but it is a very useful 
beginning. They are talking about respecting the will of the 
people, and that I would submit is the beginning of democracy.
    Hong Kong people have learned to trust these new leaders. 
Recent public opinion polls show that Hong Kong people have 
more confidence in the Beijing leaders than our own leader, Mr. 
Tung Chee-hwa in Hong Kong, but because of the strong criticism 
of the advocates for democracy in Hong Kong, the most recent 
poll showed that the popularity ratings of our top Chinese 
leaders have come down slightly.
    I hope and I am confident that the trouble we are facing in 
Hong Kong is short-term. I have confidence that the leaders, 
when they finally understand what is really happening in Hong 
Kong, will put their fears away so that they can also learn to 
trust the Hong Kong people, because what we need is mutual 
trust. We have learned to trust them. I hope they will soon 
learn to trust us.
    My vision, Mr. Chairman, is not only for my country to 
remain a big country. I want to see it becoming a great nation 
where the human rights of the 1.3 billion people in China will 
be respected by those in government and will be protected by 
the rule of law.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Martin Lee follows:]

                    Prepared Statement of Martin Lee

    Mr. Chairman and Members of the Committee:
    Thank you very much for this opportunity to discuss the history and 
importance of the development of democracy in Hong Kong.
    Being one of the elected representatives of Hong Kong and having 
been engaged in the campaign for democracy for more than two decades, I 
am morally obliged to explain to the international communities the 
ongoing situation of Hong Kong, and the aspirations of our people for 
democracy.
    I am perplexed when I hear criticisms in Hong Kong about my loyalty 
to my country. But I will never be inhibited about speaking. All along, 
it is well known that I have supported the reunification of Hong Kong 
and Taiwan with my country; I oppose the independence of Taiwan and 
Tibet, and I have the vision that the success of ``One Country Two 
Systems'' policy in Hong Kong would be conducive to our reunification 
with Taiwan and beneficial to the modernization of China.
    On December 19, 1984, the Sino-British Joint Declaration was 
signed, setting out the terms of the resumption of sovereignty of Hong 
Kong to China. In this important treaty, our Chinese government pledged 
to the international communities and to Hong Kong people that our 
freedoms and way of life would continue unchanged for 50 years.
    Hong Kong people were also promised ``a legislature constituted by 
elections'' and that all of our present day rights and freedoms would 
continue. These solemn international guarantees were used to seek the 
support of the international and Hong Kong communities.
    Since then, the international communities have taken a natural 
interest in the development of democracy and the preservation of basic 
freedoms in Hong Kong.
    I welcome this hearing as a continuation of our regular provision 
of information about developments in Hong Kong's historic transition.

                       THE BENEFITS OF DEMOCRACY

    Hong Kong people have had democratic elections for a minority 
number of seats in the Legislature since 1991, and we have a free 
press, an independent judiciary and a lively civil society.
    In order to preserve these rights and win the support of the 
international communities, both the Joint Declaration and the Basic 
Law, Hong Kong's mini-constitution, envision a gradual process of 
democratization with a full democracy as the defined ultimate goal. The 
Basic Law would allow the election of our Chief Executive in 2007, and 
of the entire Legislative Council in 2008 by universal suffrage, 
subject to a change to the electoral rules according to certain defined 
procedures. A constitutional reform in 2007 is called for in the Basic 
Law.
    The poor performance of the Tung Chee-hwa's administration has 
reminded Hong Kong people that a democratic and an accountable system 
as promised is essential for our future. They are now understandably 
eager to see the promises fulfilled. Public opinion survey after survey 
show that Hong Kong people want to participate directly in electing 
their own leaders for both the legislative and executive branches.
    The latest public opinion poll, conducted last month by the Chinese 
University of Hong Kong showed that 68.7% of Hong Kong people want the 
Chief Executive to be elected by universal suffrage in 2007 and 75.6% 
agreed that the Legislative Council should be directly elected in 2008. 
Another poll undertaken last December (10-14/12/03) by the University 
of Hong Kong showed similar findings. And a recent survey commissioned 
by Civic Exchange and conducted by the Hong Kong Transition Project 
showed that 88% want constitutional reform, with 81% supporting direct 
election of the Chief Executive.
    In short, Hong Kong people want democracy.

                            FREEDOM MATTERS

    Why does democracy matter to Hong Kong people?
    Freedom and the rule of law are not just abstract theories to us. 
Hong Kong people truly understand that a free society protected by the 
rule of law will enable them to plan and lead their own way of lives 
without arbitrary interference from the government, to become 
prosperous by their own hard work and to provide good opportunities for 
their future generations. It is what enabled Hong Kong to become the 
eighth largest trading center in the world.
    With this, Hong Kong has become and maintained itself as an open 
and vibrant society where people peacefully and freely express their 
political views individually and through their elected representatives.

                           PEACEFUL PROTESTS

    On July 1 of last year, more than half a million Hong Kong people 
took to the streets to protest against proposed national security 
legislation, known as Article 23, and to demonstrate in favor of 
democratic elections. The bill would have rolled back freedoms, 
including those of the press, and undermined other basic liberties.
    For ordinary citizens in Hong Kong, this near-passage of the 
pernicious bill was the catalyst in recognizing that the freedoms we 
have long taken for granted could not be protected over the long term 
without democracy. On January 1 of this year, more than 100,000 people 
marched to demand constitutional reform.
    Our Chinese government has recently had a leadership change. And 
our government's initial reaction to these peaceful marches by Hong 
Kong people was quite measured.
    Our leaders President Hu Jintao and Premier Wen Jiabao have 
appeared willing to listen to Hong Kong people's concerns about the 
local economy and taken steps to help revive it. The bill was 
eventually withdrawn.
    Presently, the governance of Tung's administration is in crisis. We 
have now come to the time when implementing full democracy is essential 
in continuing not only to ensure effective governance by the 
Administration, but to maintain freedoms and the rule of law.

                               PATRIOTISM

    In Hong Kong in recent weeks, there has been a wide public debate 
about the meaning of ``patriotism.'' This debate was launched by the 
re-publishing of comments made by China's late leader Deng Xiaoping, 
that only ``patriots'' who ``love the motherland'' should be allowed to 
hold government office.
    Equating our demand for democracy to the quest for independence is 
groundless. In fact, far from seeking for independence, Hong Kong 
people want to see our country, China, become not just a large nation, 
but a great one.
    We believe we are truly patriotic because as we see it, democracy 
is the only way to make ``One Country Two Systems'' work in the long 
term and the success of ``One Country Two Systems'' is conducive to the 
reunification of Taiwan, and beneficial to the modernization of our 
nation.

                          CHINA'S NEW LEADERS

    Our new leaders President Hu Jintao and Premier Wen Jiabao, have 
won the admiration of many people in Hong Kong for the way they handled 
the SARS crisis last year. In his recent visit to Hong Kong, Premier 
Wen has gained a good impression from Hong Kong people by showing 
himself to be a caring and responsive leader.
    President Hu delivered a speech to the Australian Parliament last 
year, saying that the government was increasingly involving the Chinese 
people in decision-making and would take concrete steps to safeguard 
the legitimate rights of the people.
    President Hu said, ``Democracy is the common pursuit of mankind, 
and all countries must earnestly protect the democratic rights of their 
people.''
    I couldn't agree more.
    In addition to our leadership change in China, there are other 
factors that should lead to a more open approach to democracy. China is 
now a member of the World Trade Organization, an achievement I strongly 
encouraged on previous visits to Washington.
    Beijing is already preparing to host the Olympic Games in 2008. 
China has signed the International Covenant on Civil and Political 
Rights, and signed and recognized the International Covenant on 
Economic, Social and Cultural Rights.

                             BUILDING TRUST

    On a visit to the United States in 2002, our President Hu spoke to 
the U.S.-China Business Council. He said:

          China needs to deepen its understanding of the U.S., so does 
        the U.S. of China. Enhanced understanding and trust between the 
        two sides will help boost a healthy growth of bilateral 
        relations.

    I think those were very wise words and good advice from our leader 
about U.S.-China relations.
    Although the relationship between Hong Kong and China is not a 
country to country relationship but rather Hong Kong being an 
inseparable part of China, I also believe that these words are 
excellent advice for how our leaders in China should deal with the 
people of Hong Kong. After nearly seven years of reunification, we hope 
to embark on a path of mutual trust and cooperation with our new 
Chinese leaders.
    And we hope that our Chinese leaders will in turn honor their own 
promise that ``Hong Kong people will rule Hong Kong'' in a meaningful 
way--through democratic elections.

    Senator Brownback. That is a beautiful thought and a great 
statement. I appreciate that greatly.
    Mr. James To is a member of the Legislative Council from 
Hong Kong. Thank you very much as well for traveling to be here 
with us. The floor is yours.

 STATEMENT OF JAMES TO, MEMBER, LEGISLATIVE COUNCIL, HONG KONG

    Mr. To. Mr. Chairman, actually I, together with Martin Lee, 
are of the same political party, the democratic party, and we 
share the same value, vision, and also the analysis of the 
recent situation of Hong Kong and the projected development of 
the democracy of Hong Kong.
    I just want to briefly talk about the recent patriotism 
controversy. Recently the pro-Beijing newspaper in Hong Kong 
just attacked many of our pro-democracy colleagues in the 
Legislative Council, and some pro-Beijing newspapers even named 
several persons and divided it into so-called four categories 
of non-patriotism persons.
    The first is to topple the Chinese Government. They are 
talking about a pro-democracy movement in China when, at the 
same time, in Hong Kong they formed a group to support the 
students in Beijing in 1989 and led millions of Hong Kong 
people at the time to protest against the massacre in Beijing.
    We love our country. So we want not just in Hong Kong, but 
in mainland China, for our fellow citizens to enjoy the human 
rights protection and the freedom that we can enjoy in Hong 
Kong. As citizens of one country, the PRC, we have every right 
to demand our country to advance, demand our country to respect 
the rights of people, not just in Hong Kong but in the 
mainland. So I feel that, as a truly patriotic person of the 
country, we should have the right to advance the cause.
    The second category of the named non-patriotic persons 
includes those who have only uttered a phrase in respect for 
the Taiwan people's wish of their future. I think on this I 
would say in Hong Kong we have the freedom of speech, so any 
person who just utters a thing in respect for other people's 
wishes is within the freedom of speech area. Of course, I would 
say many of the Hong Kong people would support the peaceful 
unification of Taiwan, but I think that the serious attack on 
any person in Hong Kong within that freedom of speech area 
should not be the right thing.
    And the third category is to go to the foreign place to 
bad-mouth Hong Kong. On this category my response is very 
simple. We would tell the whole world about the truth of Hong 
Kong. Especially being a representative of the Hong Kong 
people, I feel it is my duty to inform the whole world about 
the truth of Hong Kong, the development of Hong Kong, and so 
any attack or any allocation of bad-mouthing Hong Kong is 
misconceived.
    And finally, about the category of persons who oppose 
article 23 legislation. I can recite to you, Mr. Chairman, that 
in a motion debate that I sponsored in December 2002, I said a 
true patriotic person should oppose the article 23 legislation. 
Why did I say that? Because I feel that all along Hong Kong is 
more advanced in human values, in international norms in 
comparison with the mainland. And our country needs a place--
and Hong Kong is always the place--to have that kind of 
experiment in the more advanced system. So any article 23 
legislation which restricts freedom would undermine that kind 
of process and experimental view or possibility. So I feel that 
true patriots of our country should oppose any article 23 
legislation which would restrict our freedom.
    These are my remarks.
    Senator Brownback. Thank you very much, Mr. To. I 
appreciate that.
    We have a third and final member of the Legislative Council 
elected in Hong Kong, Mr. Cheuk-yan Lee. Thank you very much 
for joining us today, and a pleasure to have you here. The 
floor is yours.

 STATEMENT OF CHEUK-YAN LEE, MEMBER, LEGISLATIVE COUNCIL, HONG 
                              KONG

    Mr. Lee. Thank you, Mr. Chairman, for the invitation. I am 
the General Secretary of the Hong Kong Confederation of Trade 
Unions, the independent and democratic trade union center in 
Hong Kong, representing 170,000 workers.
    For the CTU, my organization, we believe that democratic 
rights are part of workers' rights. Over the years, I have been 
struggling for workers' rights for almost 25 years now, and in 
Hong Kong I feel very much frustrated with the fact that before 
the handover and after reunification with China, the whole 
political system is totally skewed toward the business 
interests. Therefore, we have always from the workers' side 
been suffering, because of a lack of democracy, from a lack of 
workers' rights. We have no minimum wage, no working hours 
limitations, no right to collective bargaining, and we have a 
very wide disparity between the gap of the rich and poor. That 
is the backdrop that we in the trade movement have been, over 
the years, fighting for our democratic rights because we 
believe that this is the only fair thing to do.
    Mr. Chairman, we are now at a very important time in the 
history of Hong Kong. First, after 6 years under the Chief 
Executive, elected by a small minority of 800 people, people of 
Hong Kong, now very clearly realize that this whole political 
system does not work because the Chief Executive does not have 
the mandate to rule, and therefore cannot really rally the 
people's support especially facing economic hardship. And it is 
very difficult for one without a mandate to steer Hong Kong 
toward the future, and the people very much realize that now.
    Second, the people of Hong Kong have shown their aspiration 
with more than half a million marching against the national 
security bill and, of course, also marching for universal 
suffrage. So the people have already spoken, and their 
aspiration should be respected.
    But again, it is also a very important time in history 
because we also see obstacles toward democracy in Hong Kong. A 
very clear example is what James To has mentioned, the recent 
debates on patriotism. We in Hong Kong want to discuss the 
substance, the Road Map toward a democratic future, but the 
Chinese Government, the central government, has said that they 
want to discuss principles first, abstract principles like 
patriotism. Therefore, after talking about principles, lots of 
power brokers in Hong Kong, and the vast interest groups, 
jumped into this opportunity to put forward attacks on the 
democratic camps for being unpatriotic or not supporting ``one 
country, two systems.''
    I would say these attacks are tactics of delay, delaying 
tactics of avoiding discussion on the real substance, and also 
very counterproductive, as you can see when people are being 
attacked for not being patriotic enough. The whole society is 
divided. Again, this is not good for Hong Kong when the society 
is being divided.
    And the second obstacle toward democracy, regrettably I 
would say, is because of the business community. Some of the 
business community, instead of pressing forward for the 
necessary political reform, also try to hinder Hong Kong's 
democratization to preserve their vested interests. I always 
say that they are having the political free lunch because they 
do not even have to pay for campaign money. They just control. 
They are part of the 800 and they can control the whole 
government. Some of them are talking about democracy leading to 
a welfare state and the economy will collapse.
    Of course, these arguments are absurd because experience 
will show that democracy and economic prosperity go hand in 
hand. I would say what local business leaders fear is, in my 
view, a level playing field in which all Hong Kong people are 
given a voice in the territory's governance. To them ``all 
animals are equal, but some animals are more equal than 
others.''
    Mr. Chairman, after talking about the obstacles, I still 
think there are grounds for optimism.
    First, the Chinese leadership has so far not said or done 
anything irrevocable. In other words, there are still chances 
for consensus in Hong Kong's political future development and 
universal suffrage in 2007 and 2008.
    And second, Mr. Hu Jintao, the President of the PRC, has 
stressed recently that there was no socialism without 
democracy, and he talked about the people should be allowed to 
monitor the government, should be allowed to participate in 
government, and he has also revealed that the International 
Covenant on Civil and Political Rights would be put to the 
National People's Congress for ratification.
    So it seems that things are opening up. It seems that there 
is a process of modernization. These are all good signs. It is 
not natural for the Chinese leadership to experiment with Hong 
Kong in the area of democracy. It already has freedom and it is 
``one country, two systems.'' So is it not natural to go 
forward for further democracy to show to the Chinese leadership 
it is good for prosperity and stability? So we believe that 
having Hong Kong move forward with full democracy is both good 
for Hong Kong and also for our country and our compatriots in 
China.
    Mr. Chairman, I think more than half a million people of 
Hong Kong have spoken and their voice should be respected and 
their aspirations for a democratic future should be respected. 
Thank you.
    [The prepared statement of Mr. Cheuk-yan Lee follows:]

                  Prepared Statement of Cheuk-yan Lee

    Mr. Chairman, thank you for inviting me to present my views to you 
and the subcommittee on Hong Kong's democratic development. I am the 
General Secretary of the Hong Kong Confederation of Trade Unions (the 
CTU), an independent workers' organization dedicated to the promotion 
of decent work, social justice and democracy. The CTU, comprised of 64 
affiliated unions, represents more than 170,000 workers from all major 
industries and occupations. I am also a directly elected member of the 
Legislative Council (the LegCo) of the Hong Kong Special Administrative 
Region (the HKSAR), the People's Republic of China (the PRC).
    The CTU and I believe that political right is an integral part of 
worker's rights, and political democracy is an indispensable condition 
for workers' full enjoyment of the rights to decent work, as stipulated 
in the International Covenant on Economic, Social and Cultural Rights 
and various conventions of the International Labor Organization. It is 
the reason why the CTU and I have played an active part in Hong Kong's 
democratic movement since the 1980s.
    It is indisputable that Hong Kong's political system was, and still 
is, skewed toward business interests. Under British colonial rule, the 
Governor was appointed in London, and members of his cabinet, the 
Executive Council, were almost exclusively recruited from a handful of 
big business. In the first 10 years after China's resumption of the 
exercise of sovereignty over Hong Kong, the Chief Executive is 
selected, under the Basic Law, the mini-constitution of the HKSAR, by 
an Election Committee, in which the business sector have a 
disproportionate representation in their favor.
    The detrimental consequences of this unfair political arrangement 
on workers' welfare are evident. There are no laws regulating workers' 
working hours in Hong Kong. Nor are there any statutory provisions on 
minimum wages protecting workers from excessive exploitation. Employees 
are still being denied a voice at work, and labor unions are deprived 
of the right to bargain collectively with the employers. Hong Kong has 
one of the most uneven distributions of income in the world (Hong 
Kong's Gini Coefficient, a common measure of income inequality, reached 
its record hike at 0.525 in 2001), while business profit's share of 
national incomes is among the highest in all advanced economies (45% of 
GDP in Hong Kong cf. 30% in the United States).
    It is well established that an undemocratic society, where societal 
conflicts could not be resolved through proper political means, is less 
able to weather the storms at times of difficulties. Hong Kong is no 
exception. Economic recession in past few years has triggered a crisis 
of legitimacy and governance. Successive opinion polls reveal that more 
than 60% of respondents have no confidence in the Chief Executive, and 
majority of Hong Kong people register their dissatisfaction with the 
executive branch of the HKSAR Government as well as the legislature. 
All available evidences lead to the conclusion that the existing 
political system no longer works, and it is not conducive to rallying 
people's support for steering Hong Kong forward. Failure to institute 
reforms will, sooner or later, adversely affect Hong Kong's stability 
and prosperity.
    Local political scientists and commentators rightly point out that 
the present impasse has largely stemmed from the flaws in the design of 
Hong Kong's political system. At the heart of the problem is the lack 
of popular support due to its weak political mandate. The only logical 
solution is: electing both the Chief Executive and all members of the 
LegCo by universal suffrage. An overwhelming proportion of Hong Kong 
people subscribe to this view. A recent survey finds that more than two 
thirds of respondents agree that the Chief Executive should be 
popularly elected in 2007, while over three quarters of the population 
support electing the entire legislature by universal suffrage in 2008.
    Hong Kong people's call for electing the Chief Executive and all 
members of the LegCo on a one-person-one-vote basis in 2007 and 2008 
respectively is in line with relevant provisions of the Basic Law. 
Articles 45 and 68 of the Basic Law stipulate that the methods for 
selecting the Chief Executive and forming the LegCo shall be specified 
in the light of the actual situation in the HKSAR and in accordance 
with the principle of gradual and orderly progress. The ultimate aim, 
as promulgated in the Basic Law, is the election of the Chief Executive 
(upon nomination by a nominating committee) and all members of the 
LegCo by universal suffrage. Given our level of economic development, 
tradition of the rule of law, free flow of information, a vibrant civil 
society and experiences in organizing territory-wide polling (the 
actual situation), Hong Kong is well equipped for introducing a 
universal suffrage system (gradual and orderly progress) in 2007 and 
2008. And Hong Kong people are, undoubtedly, more than capable of 
choosing their own leaders.
    Mr. Chairman, I would like to stress that the Central Government of 
the PRC has definitely a stake in Hong Kong's political development. 
Annex I of the Basic Law stipulates that,

          If there is a need to amend the method for selecting the 
        Chief Executives for the terms subsequent to the year 2007, 
        such amendments must be made with the endorsement of a two-
        thirds majority of all the members of the Legislative Council 
        and the consent of the Chief Executive, and they shall be 
        reported to the Standing Committee of the National People's 
        Congress for approval (emphasis added).

Hong Kong people, including the ``democratic camp,'' are prepared to 
engage in a rational and meaningful dialogue with the Central 
Government, with a view to reaching a consensus on the method of 
electing the Chief Executive.
    I have to admit, however, that there are grave differences between 
local community and the Central Government over the pace of Hong Kong's 
democratization, and resolving these differences is no easy task. Our 
community would like to have a discussion more focused on the concrete 
road map tackling Hong Kong's existing political impasse while the 
Central Government insisted on reaching consensus over some abstract 
principles. In fact, no one in the HKSAR would object to the principles 
relating to Hong Kong's democratic reform raised by the Chinese 
leadership, including the patriotism proviso and support for the ``One 
Country, Two Systems'' model, provided they are construed in strict 
accordance with the Basic Law. But local power brokers and vested 
interest groups are fast in exploiting the opportunity to launch 
attacks on us, the democratic camps, putting forward accusations of 
unpatriotic or not supporting ``One Country, Two Systems.'' Some even 
go further to suggest that we are not qualified to stand for the coming 
Legislative Council Election. This is both counter-productive and 
obviously a delaying tactics of avoiding discussions on substance.
    Regrettably, some business community, instead of pressing the 
territory forward into the necessary political reforms, also tried to 
hinder Hong Kong's democratization to preserve their vested interests. 
The business sector argues that Hong Kong is not ready for democracy, 
because local politicians do not understand business. One prominent 
business leader even warned that democracy would turn Hong Kong into a 
welfare state, causing the economy to collapse. Their arguments are 
simply absurd. The claims that direct election would result in a 
drastic increase in welfare outlays is empirically unfounded and a 
total disregards of serious debates in election campaign. What local 
business leaders fear is, in my view, a level playing field, in which 
all Hong Kong people are given a voice in the territory's governance. 
To them, ``all animals are equal, but some animals are more equal than 
others.''(George Orwell's Animal Farms)
    Mr. Chairman, despite the above obstacles, there are also reasons 
for optimism. First, the Chinese leadership has so far not said or done 
anything irrevocable. In other words, there are still chances for 
reaching a consensus on Hong Kong's future political development, and 
universal suffrage in 2007 and 2008 is still a viable option.
    Second, Mr. Hu Jintao, President of the PRC, had stressed recently 
that that there was no socialism without democracy. In his address to 
the French National Assembly early this year, Mr. Hu also revealed that 
the International Covenant on Civic and Political Rights would be put 
to the National People's Congress for ratification once all conditions 
were in place. It is evident that present Chinese leaders had committed 
themselves in China's political modernization process. Hong Kong's 
democratization should be foremost and very much part of this 
modernization process. Experiences of introducing a universal suffrage 
system in the HKSAR will interact valuably with the Mainland. This is 
both good for Hong Kong and our country.
    Mr. Chairman, more than half a million Hong Kong people took part 
in the historic rally on July 1, 2003. They stood up and defended their 
fundamental rights, in a most dignified manner. Hong Kong people 
showed, once again, solemnly, to the Chinese leadership as well as the 
international community, that they have a strong sense of 
responsibility and they care about the territory they call home. The 
people of Hong Kong have spoken and their aspiration for a democratic 
future should be respected. The Central Government's response to the 
demonstration has been rational and restrained. This is the best 
indication of its determination to maintain stability and prosperity in 
Hong Kong. Against these backdrops, I am confident that a blueprint for 
Hong Kong's democratic reform, which is beneficial to both the HKSAR 
and the mainland, could be worked out.
    Thank you very much, and I would be happy to answer any questions.

    Senator Brownback. Thank you.
    Mr. Law, Human Rights Monitor Director in Hong Kong. I hope 
I pronounced your name correctly.
    Mr. Law. Yes.
    Senator Brownback. Very good. Thank you very much for 
joining us today.

 STATEMENT OF YUK-KAI LAW, HUMAN RIGHTS MONITOR DIRECTOR, HONG 
                              KONG

    Mr. Law. Thank you, Mr. Chairman. Thank you for inviting 
the Monitor to testify before you.
    We have to set out firstly that the right to democracy has 
been promised to Hong Kong when China signed the Sino-British 
Joint Declaration. It says that the International Covenant on 
Civil and Political Rights shall remain in force. Article 25 of 
the International Covenant on Civil and Political Rights 
provides for the right to be elected and to vote by universal 
and equal suffrage. Unfortunately, both the British and the 
Chinese authority have failed to conform with these 
international standards.
    In fact, the U.N. Human Rights treaty body, the Human 
Rights Committee, has severely criticized Hong Kong. In 1995, 
the Human Rights Committee criticized Hong Kong's electoral 
system as it does not meet the requirements of article 25 that 
is on universal and equal suffrage, as well as article 2 on 
non-discrimination, article 3 on gender equality, and article 
26 on equal protection of the law.
    The committee particularly underscored the concept of 
functional constituencies which give undue weight to the will 
of the business and professionals, discriminates against most 
voters on the basis of poverty and functions. This clearly 
constitutes a violation of articles 2, 25, and 26. That is 
exactly what it said in a U.N. hearing.
    Unfortunately, after the handover, that is, reunification, 
the elections in Hong Kong have a further reduction in the 
franchise in the functional constituencies. It is a reduction 
by 90 percent. Also, 2 million people who were voters were no 
longer eligible to vote in this kind of so-called functional 
constituencies, thus making these small-circle elections even 
more repugnant.
    In 1999, the U.N. Human Rights Committee again reaffirmed 
their criticism. So the violation continues even under Chinese 
rule. And the way to elect a Chief Executive is no better, as 
our friends have pointed out. Only 800 people are eligible to 
vote for the Chief Executive. This is grossly unfair.
    Luckily the Hong Kong people know their rights and try to 
claim their rights. Two major incidents have significantly 
highlighted these kind of rights, highlighted the people's 
demand for democracy. On July 1 last year, more than half a 
million people took to the streets to express their demand for 
power to the people. And several months ago, in the District 
Council elections, they turned out in an unprecedented amount 
and voted for a lot of pro-democracy candidates. And according 
to polls, it is quite clear that the Hong Kong public is in 
favor of early reform.
    In December 2003, the public opinion program at the 
University of Hong Kong showed that 73 percent and 78 percent 
of the respondents support universal suffrage for electing the 
Chief Executive in 2007 and for all the Legislative Councilors 
in 2008, respectively. Even after the very serious attacks by 
the Chinese authority recently, these figures remain high. They 
are still respectively, 68.7 percent and 75.6 percent in spite 
of these vicious attacks.
    We have to highlight to the committee that the recent 
developments by the political campaign to attack these pro-
democracy politicians and social activists and the pro-
democracy citizens in Hong Kong has flattened the freedoms of 
Hong Kong.
    Instead of responding to the call for democracy, the only 
thing the government had promised is to release a time table by 
the end of last year, and that is not realized because the 
Chinese authority intervened. They asked the Hong Kong 
authority to hold a bit. And now we do not see any clear steps 
forward.
    The Chinese authorities have clearly orchestrated a 
political campaign against pro-democracy candidates, 
politicians, activists, and others. What they want to do is to 
terrify these people, is to intimidate the public so that they 
would desist from their demands. The chilling and intolerant 
atmosphere is totally inconsistent with the promise of 
maintaining a free Hong Kong way of life, as guaranteed by the 
Basic Law.
    Some people have been singled out: Martin Lee has been 
singled out for soliciting foreign invention on internal 
matters of Hong Kong; Szeto Wah for being the chairperson of 
the Hong Kong Alliance in Support of Patriotic Movement in 
China. It is clear that China is now testing a hard-line policy 
toward Hong Kong. The objective is to silence everybody.
    Unless the Hong Kong people speak out at this moment, we 
will face the very likely situation that such hard-line policy 
will be affirmed and continue and undermine Hong Kong's human 
rights and future autonomy and our democracy deficit will never 
be properly addressed.
    Mr. Chairman, thank you for your invitation.
    [The prepared statement of Mr. Law follows:]

                   Prepared Statement of Yuk-kai Law

    Mr. Chairman and distinguished members of the Senate Subcommittee 
on East Asian and Pacific Affairs, thank you for inviting me to testify 
on the status of Democracy in Hong Kong.
    The Hong Kong Human Rights Monitor is the largest indigenous 
membership-based human rights organization in Hong Kong. We aim to 
promote better human rights protection in Hong Kong, both in terms of 
law and practical daily life, and to encourage greater human rights 
awareness.
    Our submission will focus on two areas: (a) the demand for 
democracy by Hong Kong people; and (b) the recent developments which 
have threatened freedoms in Hong Kong.

                          DEMAND FOR DEMOCRACY

    The International Covenant on Civil and Political Rights was 
extended to Hong Kong in 1976 by the United Kingdom while Hong Kong was 
under Britishrule. Article 25 of the Covenant provides,

        Every citizen shall have the right and the opportunity, without 
        any of the distinctions mentioned in article 2 and without 
        unreasonable restrictions.

                  (a) To take part in the conduct of public affairs, 
                directly or through freely chosen representatives;

                  (b) To vote and to be elected at genuine periodic 
                elections which shall be by universal and equal 
                suffrage and shall be held by secret ballot, 
                guaranteeing the free expression of the will of the 
                electors;

                  (c) . . .

    In extending the Covenant to Hong Kong, the United Kingdom has made 
the following reservation:

        The Government of the United Kingdom reserves the right not to 
        apply sub-paragraph (b) of Article 25 in so far it may require 
        the establishment of an elected Executive or Legislative 
        Council in Hong Kong . . .

    The Sino-British Joint Declaration between China and the United 
Kingdom provides that the Covenant ``as applied to Hong Kong'', i.e. as 
qualified by any declared reservations such as the above, ``shall 
remain in force'' in Hong Kong after 1997. The continue application of 
the Covenant ``as applied to Hong Kong'' was repeated in Article 39 of 
the Basic Law.
    In the Letter of Notification of treaties applicable to Hong Kong 
after 1 July 1997, deposited by the Government of the People's Republic 
of China with the Secretary-General of the United Nations on 20 June 
1997, China informed the United Nations that the Covenant ``will 
continue to apply to the Hong Kong Special Administrative Region with 
effect from 1 July 1997,'' although China was not yet a party to it at 
that time. China signed the Covenant in 1998.
    Unfortunately, both the British and Chinese Governments have failed 
to ensure that the electoral system in Hong Kong conform with their 
international obligations under the Covenant.
    The United Nation Human Rights Committee, the treaty body 
responsible for monitoring the implementation of the Covenant by treaty 
parties, concluded in their concluding observations in 1995,

          The Committee is aware of the reservation made by the United 
        Kingdom that article 25 does not require establishment of an 
        elected Executive or Legislative Council. It however takes the 
        view that once an elected Legislative Council is established, 
        its election must conform to article 25 of the Covenant. The 
        Committee considers that the electoral system in Hong Kong does 
        not meet the requirements of article 25, as well as articles 2 
        [on non-discrimination], 3 [on gender equality] and 26 [on 
        equal protection of the law] of the Covenant. It underscores . 
        . . the concept of functional constituencies, which gives undue 
        weight to the views of the business community, discriminates 
        among voters on the basis of property and functions. This 
        clearly constitutes a violation of articles 2, paragraph 1, 25 
        (b) and 26. It is also concerned that laws depriving convicted 
        persons of their voting rights for periods of up to 10 years 
        may be a disproportionate restriction of the rights protected 
        by article 25. . . .
          The Committee recommends that immediate steps be taken to 
        ensure that the electoral system be put in conformity with 
        articles 21, 22 and 25 of the Covenant.

    ``Functional constituency elections'' are an unfair system whereby 
business or professional groups elect a member or two of the 
Legislative Council to represent their interests on a special 
restricted franchise. Currently half of the 60 seats in the Legislative 
Council are reserved for functional constituencies.
    Unfortunately, the United Kingdom has done nothing to bring the 
electoral system in line with the international standards laid down in 
the Covenant in response to the UN criticisms.
    Even worse, under Chinese rule, the Hong Kong SAR Government has 
abandoned the reforms initiated by the last Governor of Hong Kong. As a 
result, in the Legislative Council elections on 24 May 1998, the 
franchise in functional constituency elections in Hong Kong has been 
further reduced more than 90% by the Hong Kong SAR Government. 
Approximately 2 million voters were deprived of their votes in the 
functional constituencies, thus making these ``small circle elections'' 
even more unrepresentative.
    In November 1999, after hearing a report on Hong Kong by the 
Chinese Government, the UN Human Rights Committee again concluded,

          The Committee reiterates its concern, expressed in paragraph 
        19 of its concluding observations, adopted at the end of the 
        consideration of the [previous] periodic report, that the 
        electoral system for the Legislative Council does not comply 
        with articles 2, paragraphs 1, 25 and 26 of the Covenant. . . .
          The HKSAR . . . should take all necessary measures to 
        maintain and strengthen democratic representation of HKSAR 
        residents in public affairs.

    In 2001 the UN Committee on Economic Social and Cultural Rights 
also stressed in its concluding observations after considering the 
report submitted by China on behalf of Hong Kong on the implementation 
of the International Covenant on Economic Social and Cultural Rights 
that the ``undemocratic features'' of the Legislative Council made it 
difficult for the HKSAR to fully realize economic, social and cultural 
rights.
    It is clear that the current electoral system for returning the 
Legislative Council continues to violate the Covenant. Most of the 800 
persons who are given the power to elect the Chief Executive are 
themselves returned by a system similar to functional constituencies. 
Therefore the electoral system for returning the Chief Executive is in 
no way better. These electoral systems all fall foul of international 
standards and perpetuate the democracy deficit in Hong Kong.
    Notwithstanding that there are provisions in the Basic Law which 
continue to deny universal and equal suffrage to Hong Kong people, the 
system continues to violate international standards.

                HONG KONG PEOPLE'S DEMAND FOR DEMOCRACY

    Two major events that took place in 2003 highlighted Hong Kong 
people's desire for democracy: the July 1st demonstration and the 
District Councils Election 2003.
    On July 1, 2003, more than half a million Hong Kong people took to 
the streets to protest against the national security legislation under 
Article 23 of the Basic Law, the mini-constitution for Hong Kong, and 
to demand for ``power to the people''. The way the Chief Executive and 
his supporters in the Legislative Council have attempted to push 
through the national security legislation has made a lot of Hong Kong 
people realize that without democracy, existing rights can easily be 
taken away by legislation. They have also been reminded that without 
democracy, it is very difficult for the people to have the required 
checks against abuses by the authorities in their enforcement of such 
laws. It has become very common knowledge that protection of freedoms 
and human rights requires democracy.
    The repeated failures of the government in various livelihood 
areas, including health, housing, employment and education have 
indicated a lack of competency of the Hong Kong SAR Government and a 
lack of ability for it to take public opinions and people's interests 
seriously. These in turn have pointed to the fact that without 
democratic elections, we cannot create a government sensitive enough to 
the opinions and demands of the general public. Worst of all, people 
have come to feel so hopeless that, without democracy, there is no way 
to get rid of an incompetent and insensitive Chief Executive who to a 
great extent has to be held responsible for failing to address their 
livelihood issues thus far, as long as he maintains support from 
Beijing. A lot of Hong Kong people have found that their livelihood 
difficulties are closely related to the lack of democracy, or have 
demanded democracy in order to remove leaders they do not consider fit 
for such important political positions.
    Hong Kong people came to realize that when the Government does not 
listen to our demands, we are forced to take our destiny into our own 
hands. As a result, they took to the streets to demand democratic 
changes.
    Another key event which has highlighted the strong demand for 
democracy was the District Councils Elections on November 23, 2003. 
Although the District Councils are more of an advisory body with very 
limited political power, people still chose to use their voting powers 
to support pro-democracy candidates. 1.07 million voters cast their 
ballots in the Election, a turnout rate of 44%, both numbers the 
highest in Hong Kong's history of district elections. Many of the pro-
Beijing candidates were voted out because of their political 
affiliation to the pro-Beijing faction.
    Opinion polls also showed a high demand for universal suffrage. In 
December 2003, the Public Opinion Program at the University of Hong 
Kong released survey results showing that 73% and 78% of the 
respondents supported universal suffrage for the Chief Executive in 
2007 and for all Legislative Councilors in 2008, respectively. Even 
after a series of public opinions attacks from the Central Government 
and pro-Beijing figures, the demand for universal suffrage remained 
high. According to a more recent poll in February 2004 by the Hong Kong 
Institute of Asia-Pacific Studies at the Chinese University of Hong 
Kong, 68.7% and 75.6% of the respondents agreed or strongly agreed to 
elect by universal suffrage the Chief Executive in 2007 and all of the 
Legislative Councilors in 2008, respectively.
    As a result, since the Re-unification with China, the demands for 
universal and equal suffrage to elect the Chief Executive and all seats 
of the Legislative Council in Hong Kong have never been as high as they 
have recently been.
    However, even before the Hong Kong people have had the chance to be 
consulted, Beijing, through its followers and official media, have 
closed off the possibility of universal suffrage in 2007/2008.

      FREEDOMS IN HONG KONG THREATENED BY THE RECENT DEVELOPMENTS

    After the two key events mentioned above, the Chinese authorities 
seem to be very determined to tighten political control over Hong Kong 
while assisting Hong Kong economically at the same time.
    The Hong Kong SAR Government's plan to release a timetable for a 
consultation on constitutional review by the end of 2003 has been 
shelved after the Chinese Government approached the Chief Executive in 
December 2003. Instead, a Constitutional Development Task Force was set 
up by the Hong Kong authorities to clarify the concerns of Beijing.
    The Chinese authorities have orchestrated a political campaign 
against pro-democracy politicians and activists in Hong Kong who 
opposed Article 23 legislation, criticized one-party dictatorship of 
the Chinese Communist Party, expressing their views and demanding 
universal and equal suffrage.
    In particular, the Pro-Beijing media and figures have singled out a 
number of pro-democracy Legislators, including Martin Lee, for 
soliciting foreign ``intervention'' on internal matters of the HKSAR 
Szeto Wah for being chairperson of the Hong Kong Alliance in Support of 
Patriotic Democratic Movement, Margaret Ng for speaking out against the 
legislation of Article 23; Emily Lau for supporting the wishes of the 
people of Taiwan.
    People have begun to compare the Hong Kong of today to China during 
the time of the Cultural Revolution. This campaign has taken up the 
theme of attacking political opposition to Beijing as being 
``unpatriotic'' and characterizing it in the form of a ``political 
movement''.
    The Hong Kong Human Rights Monitor is concerned that the Chinese 
authorities have started to change their policy towards Hong Kong. They 
are now testing a hard line policy towards Hong Kong with the objective 
of intimidating pro-democracy politicians, activists and ordinary 
citizens, and of dampening the demand for democracy. The chilling and 
intolerant atmosphere is totally inconsistent with the promise of 
maintaining a free Hong Kong way of life. The freedoms of conscious, 
political opinions, expression, assembly and association guaranteed 
under the International Covenant on Civil and Political Rights are 
under threat.
    Unless Hong Kong people speak out against the hardline policy 
currently being tested, such policy will be continued and undermine 
Hong Kong's human rights and future autonomy. Our democracy deficit 
will not be properly addressed.
    Mr. Chairman, this concludes my formal testimony. Thank you.

    Senator Brownback. Thank you very much, Mr. Law. Thank you 
for your thoughts too. This is an excellent panel, quite 
illuminating to me.
    In the essence of time, because we have got a vote called 
at 4 o'clock, I am going to truncate some of the questions that 
I would ask here.
    Mr. Lee, first, I appreciate all of you coming here and the 
bravery with doing this, and I am sorry that you have had to 
suffer the attacks that you have. One thing I have just not 
understood--and maybe you can explain it to me--is why I can go 
to Beijing and you cannot.
    I have been to Beijing several times, most recently less 
than a year and a half ago. It is a beautiful city, if you ever 
get to go there. It is quite an impressive place, and I believe 
it has grown substantially since the first time I was there in 
1985.
    But can you explain this to me? I do not understand this.
    Mr. Martin Lee. Mr. Chairman, in 1985, I too went to 
Beijing. It was all right. I was then a member of the drafting 
committee of the Basic Law, and so I had to go to the China 
mainland about a week every month.
    Until the 4th of June, 1989, when I, with many others in 
Hong Kong, strongly condemned the Tiananmen massacre, and since 
then I was not allowed to go back. It is as simple as that.
    Now, of course, recently the Chinese leaders and also Mr. 
Tung, our Chief Executive, have asked the Hong Kong people to 
forget about those terrible events on the 4th of June. Of 
course, it is impossible to forget. But they have certainly not 
forgotten. They have remembered and those of us who dared to 
criticize Beijing will not be allowed back. I certainly cannot 
see why this should be so. If I have committed any criminal 
offense, I am quite prepared to be charged and prosecuted for 
whatever offense I might have committed. But they are not 
charging me with anything. They just do not allow me into 
mainland China.
    Senator Brownback. What is so striking to me about this is 
you have got the discussion taking place on the interpretation 
and the time table for the Basic Law. It seemed the three of 
you, representing the majority of those who have voted in the 
electorate, should be the people talking with the Beijing 
Government. I do not know of a more credible voice that could 
speak for the people of Hong Kong. And yet, they still refuse 
to hear your voice.
    Mr. Martin Lee. I think the leaders in Beijing are much 
happier to listen to those who say the words that they like to 
hear and not the words that we would speak if we were to go to 
Beijing.
    I have got to say, though, I think article 41 of the 
Chinese Constitution gives the right to every Chinese citizen 
to criticize his or her own government in Beijing. But for our 
criticisms, we are now condemned to remain in Hong Kong. We 
could go to Macao. We could go to Taiwan, but not to mainland 
China.
    Senator Brownback. I believe you even offered to cancel 
your trip to Washington if they would let you go to Beijing. Is 
that correct?
    Mr. Martin Lee. And Beijing's representative in Hong Kong 
said that I was dreaming.
    And my response was the great Martin Luther King had one 
dream. This Martin Lee has two dreams. The first dream is to 
see democracy come to Hong Kong, and the second dream is to be 
able to go back to my native land. I think it is a shame that 
Hong Kong people are not allowed back to mainland China. I 
think this shows one of the very many failings of our Chief 
Executive. Even after 6\1/2\ years, he could not make sure that 
Chinese citizens can go to mainland China.
    Senator Brownback. This seems like a complete positive to 
me to move toward universal suffrage in Hong Kong. It seems 
positive to Hong Kong. And this is an outsider looking at it. I 
admit that. It seems positive for the people of Hong Kong. It 
seems positive to the people of China and the leadership in 
Beijing. You are not asking to separate from China. You seek to 
be a loyal citizens of China. It helps and is positive with the 
relationship with the rest of the world. I do not understand. 
Why is the Beijing Government fighting this and not willing to 
talk to you about time tables or specifics but wanting to talk 
about nebulous concepts like patriotism?
    Mr. Martin Lee. I think probably, Mr. Chairman, the answer 
lies in this, that when the Basic Law was finally promulgated, 
the Chinese Government thought that they would take about 10 
years to make sure that they could groom the pro-Beijing party, 
the DAB, so that it could win elections. And this is why they 
thought after 10 years of grooming this party, they could let 
Hong Kong have democracy. That was the plan I believe.
    But they have recently woke up to the idea that their 
party, the party DAB, was not getting the support of the Hong 
Kong people at all. And I believe many people in Beijing then 
thought of moving the goal posts and postponing the arrival of 
democracy to Hong Kong.
    Now, I believe it is wrong. They should let things develop 
naturally because, as I said, whoever forms a majority in the 
Legislative Council after there are democratic elections in 
Hong Kong, whichever party wins is not going to bring about 
instability.
    At the moment we have the most terrible and unworkable 
political system in the world. We have a Chief Executive who 
was actually chosen by Beijing through a Beijing-controlled 
election committee. And all the senior officials were appointed 
by Beijing, but at the sole suggestion and nomination of Mr. 
Tung. So he is accountable to Beijing and they, that is, these 
ministers, are accountable to him. And none of them is 
accountable to the people of Hong Kong or to the legislature.
    And that is why the thing does not work. Mr. Tung does not 
have any party in the Legislative Council who is committed to 
supporting him. Even the pro-Beijing party would abandon him if 
they believe that it is too costly a price to pay for 
supporting the government on any particular issue.
    Now, we want to change the system. Let the Hong Kong people 
decide as to who should govern, who should be the Chief 
Executive, and who should be in the Legislative Council, and 
together when both the Chief Executive and the legislators have 
the mandate of the people, then you have a workable system.
    But I entirely agree with you, Mr. Chairman. I think the 
Beijing leaders should be persuaded that the only possible way 
forward for Hong Kong is to bring about democracy. They have 
nothing to fear. I can assure you, and I only hope that 
somebody can assure the Beijing leaders that they have nothing 
to fear.
    Senator Brownback. Mr. To or Mr. Lee, do you have anything 
to add to those statements?
    Mr. Lee. Mr. Chairman, our fight for democracy in Hong Kong 
is also a fight for democracy in China. That is my view because 
I believe that if there is a Hong Kong democratically elected 
government, it is a good demonstration for the whole China that 
democracy does work. There will be freedom and it will be a 
better China. I sincerely hope the Chinese leadership sees 
things as we do, that it is good for China itself.
    But I think the problem is, as you have observed, we have 
no chance, no opportunity at all to speak to Chinese leaders 
face to face to gain their trust, to gain a good communication 
through face-to-face talks so that they know we are the real 
patriots. They know that we are working for the good of Hong 
Kong and the good of China.
    And there are always these power brokers/middlemen who are 
trying to smear the pro-democracy camp in Hong Kong, and I 
think that explains why when we come here there are a lot of 
names of names, attacks on us. So when the Chinese leadership 
looks at all these things, they will gradually have a mistrust 
of us, and I think that is the basic problem, that there are 
always those who want to divide the people of Hong Kong and the 
Chinese leadership, instead of bridging. So I think the power 
brokers who are working for their own interests want to 
maintain Hong Kong as it is without real democracy and they are 
working toward that. I think they are an obstacle toward 
democracy in Hong Kong and China.
    Senator Brownback. I appreciate your thoughts about the 
lack of democracy hurts workers and worker rights. I had not 
fully thought through that because I am so used to a democracy 
here and the expression of many people. But if we did not have 
a democracy here, you would have fewer workers' rights because 
you would have more control by those that are able to get into 
the system rather than the people voting and politicians 
putting forward policies that resonate with the people. So an 
excellent point.
    Mr. To.
    Mr. To. Mr. Chairman, when the late Chinese leader, Mr. 
Deng Xiaoping, invented the concept of ``one country, two 
systems,'' he was thinking about solving the problem of Taiwan, 
reunification of Taiwan. Now, you know Taiwan has a ``one 
person, one vote'' to elect their leader. But in Hong Kong I 
think the international community all along is thinking about 
that except for foreign affairs and defense. Hong Kong people 
ruling Hong Kong means a real thing that Hong Kong people 
should choose their own leader of Hong Kong.
    However, if Beijing is not determined enough to let the 
Hong Kong people realize their wish under the Basic Law 
permissible in 2007 and 2008 for full democracy, I think it 
will not even undermine the demonstration effect of Hong Kong 
to Taiwan, but the Taiwan people would feel that, well, it is 
only several years after the resumption of exercise of 
sovereignty of Hong Kong. China is doing something like that. 
And how can the Taiwan people feel very good about the good 
effect of ``one country, two systems''?
    So I think I share the same feeling with the chairman in 
your introductory remarks, that it is difficult to comprehend 
that, why Beijing would not allow Hong Kong to have a full 
democracy in order to really demonstrate the promise of ``one 
country, two systems'' and Hong Kong people ruling Hong Kong.
    Senator Brownback. Mr. Lee, let me get to the specifics on 
this. Beijing is not willing to discuss when to go to universal 
suffrage in Hong Kong at all, or do they say this is provided 
for in the Basic Law, but we cannot do this by 2007, and yes, 
we are going to go to universal suffrage, but we are going to 
put the timeframe off? What is the specific status that they 
have said toward universal suffrage?
    Mr. Martin Lee. Well, the top leaders, that is Hu and Wen, 
have not departed from the language of the Basic Law. So they 
merely repeat the key words, which is development must be 
gradual according to local conditions. But you can interpret 
those phrases in whichever way you like.
    However, there are a number of people from Beijing, as well 
as in Hong Kong, the pro-Beijing people, who have put all sorts 
of twisted meanings to those words and they interpret those 
words to mean, therefore, if you go to a direct election in 
2007 and 2008, then you are doing it by taking one step only. 
They said whereas you should do it by a number of steps.
    But even then they are wrong because we actually started in 
the year 1997, and at that time the Chief Executive was 
selected by a committee of 400 people. Then the second time was 
2002. This time it was enlarged to 800 people. So you can say 
there is already development. For the election of the 
legislators too, there have been steps moving forward from 24 
democratically elected members to 30, and then from 30, you 
could actually move up to 60, or somewhere in between.
    So the top Chinese leaders I believe have not actually come 
to a decision on this important issue. They are still listening 
to all sorts of people. They have sent people down to Hong Kong 
to find out the general feelings in Hong Kong. I hope they can 
come to a decision soon, and I hope the decision will not be 
too far away from the clear wishes of the Hong Kong people as 
was shown on the 1st of July demonstration last year. So I do 
hope the Beijing leaders will finally see the wisdom of 
allowing Hong Kong people to have democracy because, as you 
said, the Hong Kong people want it and they deserve it.
    If you look at the conditions of Hong Kong and you ask 
yourself which country in the world had democracy with the 
people they had and if you compare it with Hong Kong people 
now, the civil society and the very dignified way of their 
demonstration and the intelligence of the people of Hong Kong, 
if you put them all together, and you say which people in the 
world deserve democracy more than the people of Hong Kong.
    Senator Brownback. They are ready and it is capable of 
happening. Your party's position is universal suffrage, direct 
elections, all eligible people entitled to vote by 2007. Is 
that correct?
    Mr. Martin Lee. Office of the Chief Executive, and by 2008 
of all the legislators.
    Senator Brownback. And there is no doubt in your mind but 
that Hong Kong can achieve that, that the system can be put in 
place as well.
    Mr. Martin Lee. Absolutely no doubt. We are ready.
    Senator Brownback. Thank you all very much for being here. 
I deeply appreciate it. This is an issue of great concern here.
    We have the third panel that I am going to call up, and I 
am going to try to do this quickly, by 4 o'clock on the third 
panel. Then I will adjourn at 4 o'clock.
    The third panel is going to consist of Professor James 
Feinerman, Professor of Asian Legal Studies at Georgetown 
University Law School; Ms. Ellen Bork, Deputy Director of the 
Project for a New American Century; and Mr. John Tkacik, 
Research Fellow in China Policy at the Heritage Foundation.
    If I could, with the three panelists coming up, I am going 
to ask you to really truncate your comments so that we can 
conclude at 4 o'clock. I believe there is a press conference 
planned with the legislators at 4 o'clock just outside and we 
will try to conduct that then and ahead of the vote.
    Mr. Feinerman, thank you very much for joining us. As I 
said, we are running about on 13 minutes. So if each of you 
would please just take about 4 minutes for your comments. I 
apologize for truncating you, but if you could comply with 
that, I would be deeply appreciative.

STATEMENT OF JAMES V. FEINERMAN, ASSOCIATE DEAN, INTERNATIONAL 
AND GRADUATE PROGRAMS, JAMES M. MORITA PROFESSOR OF ASIAN LEGAL 
           STUDIES, GEORGETOWN UNIVERSITY LAW CENTER

    Mr. Feinerman. I will be very brief. Thank you, Mr. 
Chairman and the subcommittee, for holding these hearings and 
providing an opportunity for us to present our views about the 
important things that are happening in Hong Kong and the 
mainland right now.
    I have already submitted an extensive written statement, so 
I will just try and summarize.
    Senator Brownback. Those will be put in the record for all 
the panelists.
    Mr. Feinerman. Of course, as you well know, the United 
States has enacted a domestic law in the Hong Kong Policy Act 
of 1992. You yourself were cosponsor of a joint resolution last 
year, and Hong Kong and its future are a matter of great 
interest to the U.S. Government and people.
    In recent weeks we have seen also in Hong Kong that the 
people have taken to the streets again to call for greater 
democracy in the territory, and I think that there is reason 
for us to share their concerns and hope that the central 
government in Beijing will see the merit of the claims they are 
making.
    This, of course, follows on the half million people that 
protested last July when the Chief Executive was attempting to 
ram through the draconian security legislation in the face of 
public opposition.
    I would also note that I think that in many ways what is 
being threatened on the part of Beijing really flies in the 
face of both the letter and the spirit of both the Joint 
Declaration and the Basic Law. The Joint Declaration is a 
solemn international legal obligation between the People's 
Republic and the Government of Great Britain, and the Basic Law 
was drafted by the PRC side with the assistance of Hong Kong 
people and I think also should be honored.
    It is also ironic that in a time when just next week or the 
following week the National People's Congress in China will 
meet for its annual 2-week session and amend the constitution 
of the People's Republic of China to include, for the first 
time, the phrase, ``human rights,'' in the rights that are 
respected and enshrined in the PRC constitution, that human 
rights are in danger of being denied in their advancement in 
Hong Kong. I think that given the fact that Hong Kong has long 
enjoyed, even before the 1997 handover, through the 
incorporation of British common law and elements of the English 
constitution, many of the aspects of democracy and human 
rights, that it would be a shame if those promises to continue 
that same system in force for 50 years after the handover were 
denied.
    I would just mention two things that are discussed 
extensively in my written testimony. The provisions that were 
mentioned already by the Deputy Assistant Secretary with regard 
to both article 45 and article 68 of the Basic Law that provide 
for the direct election eventually without a specific time 
table being spelled out for both the Chief Executive and the 
legislature. Here again, I think there is room for some 
disagreement, honest or otherwise, about whether any time table 
was ever intended, whether there were expectations on both 
sides about what the timing would be.
    But it is important to note that the aim is clear in that 
legislation, and the aim that is stated, with regard to the 
legislature, is that the ultimate aim is the election of all 
the members of the Legislative Council by universal suffrage. I 
think there is no reason to delay or deny that right.
    So, in conclusion, I would say that since the Basic Law 
provides for the possibility of instituting direct popular 
democracy as early as 2007 and because of where Hong Kong 
stands today, it makes eminent good sense to look forward to 
implementing these political arrangements as soon as possible, 
that the intentions of the Sino-British Joint Declaration and 
other attendant legal documents should be put in force.
    Finally, I would just say, ironically, that although 
Beijing often decries foreign interference in its internal 
affairs and takes great umbrage whenever that happens, it seems 
to be interfering right now in the internal affairs of Hong 
Kong, and particularly the promise that it made at the time of 
the handover that there would be a ``gang ren zhi gang,'' Hong 
Kong administered by Hong Kong people. And I think that it 
should follow its own preaching and get out of the way.
    Thank you.
    [The prepared statement of Mr. Feinerman follows:]

             Prepared Statement of Prof. James V. Feinerman

    Mr. Chairman and Members of the Subcommittee:
    Thank you for holding these hearings and for providing an 
opportunity for me to present my views and to share information 
gathered on recent visits to the Hong Kong Special Administrative 
Region (HKSAR) of the People's Republic of China (PRC) and in ongoing 
work in the field of the rule of law in China. Given Hong Kong's 
population, strategic position, and economic importance, it remains 
necessary to focus upon a number of other significant considerations in 
formulating United States policy towards the HKSAR. Of course, the 
United States has enacted in domestic law the Hong Kong Policy Act of 
1992,\1\ to indicate our continuing interest in economic and political 
relations with the territory and in the well-being and prosperity of 
its citizens. In addition to United States actions and responses to 
moves taken by the PRC, recurrent questions surrounding the PRC's 
intervention in the HKSAR's governance despite promises that Hong Kong 
would enjoy at least fifty years of autonomy following its return to 
PRC sovereignty remain difficult to answer.
---------------------------------------------------------------------------
    \1\ United States-Hong Kong Policy Act of 1992, Public Law 102-383, 
102nd Congress [S. 680]. (codified at 22 U.S.C. 5701 et seq.) Sec. 2, 
para. 6, ``Findings and Declarations,'' states:

        The human rights of the people of Hong Kong are of great 
      importance to the United States and are directly relevant 
      to United States interests in Hong Kong. A fully successful 
      transition in the exercise of sovereignty over Hong Kong 
      must safeguard human rights in and of themselves. Human 
      rights also serve as a basis for Hong Kong's continued 
      economic prosperity.
---------------------------------------------------------------------------

    In recent weeks, thousands of Hong Kong residents have once again 
taken to the streets to call for greater democracy in the territory. 
Six years after the handover, the populace is calling for the semi-
autonomous Hong Kong government to speed up reforms that would grant 
them more say in the choice of leaders and legislators. The first 
series of protests last summer was triggered by the Hong Kong 
government's attempts to pass a security law designed to prevent 
subversion against the central government in Beijing--seen by many as 
signal of an erosion of the freedoms the territory was promised under 
Hong Kong's mini-constitution, the Basic Law. After an estimated half-
a-million people protested on July 1, Hong Kong's Chief Executive Tung 
Chee-hwa backed down and delayed a vote on the controversial security 
bill, originally scheduled for early July, 2003.

Introduction
    An increasing cause for concern in the international community is 
the Chinese government's antagonism towards the desire of the Hong Kong 
people for the establishment of a modicum of the democratic political 
process as expected under the terms of the Sino-British Joint 
Declaration and Hong Kong's Basic Law by 2007. Hong Kong's future has 
become even more problematic in the wake of the failed attempt to enact 
draconian national security legislation pursuant to Article 23 of the 
Basic Law by means of a truncated legislative process and the 
sympathetic reaction of many Hong Kong residents to the goals of pro-
democracy forces. Harsh rhetoric from Beijing has been addressed to 
those in Hong Kong who publicly voiced their support for dissident 
elements, boding ill for the enjoyment of promised civil liberties.
    This drama has been played out in Hong Kong before, so the 
residents of Hong Kong are understandably worried. A protracted series 
of negotiations lead to the adoption of the Basic Law, a ``mini-
constitution'' for post-1997 Hong Kong. Three successive drafts were 
circulated, and public comment was invited. Strong public reaction to 
the undemocratic nature of the government proposed for Hong Kong after 
1997 in these drafts led to strident statements from both PRC and Hong 
Kong representatives. Officials from China threatened to impose a 
framework on Hong Kong unilaterally if its representatives persisted in 
their ``intransigence.''
    To allay fears in Hong Kong over the prospect that the United 
Nations International Covenant on Civil and Political Rights, in force 
in Hong Kong as a result of British colonial rule, would no longer 
apply after the Chinese takeover, China agreed to its incorporation in 
the territory. Although British attention to human rights in Hong Kong 
had been rather limited, the threat of the removal of this basic 
underpinning for civil liberties was nonetheless troubling. Adherence 
to international human rights standards and the conventions enunciating 
them since the handover of Hong Kong has been generally good, with a 
few glaring exceptions which will be noted below.

The Legal Framework
    On July 1, 1997, the United Kingdom relinquished sovereignty over 
Hong Kong to the People's Republic of China according to an agreement 
between those two nations reached in 1984.\2\ As an international 
agreement between the two nations which have had the most direct 
control over Hong Kong's fate, this document is the starting point for 
any analysis of Hong Kong's post-1997 legal system. Yet, the Joint 
Declaration itself merely anticipated the construction of a new 
framework to implement the broadly-worded, precatory document that 
established the process for the transfer of sovereignty.
---------------------------------------------------------------------------
    \2\ Joint Declaration of the Government of the United Kingdom of 
Great Britian and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, Dec. 19, 1984, Gr. 
Brit. T.S. No. 20, reprinted in 23 Int'l. Leg. Mats. 1366 (1984) 
[hereafter ``Joint Declaration''].
---------------------------------------------------------------------------
    On April 4, 1990, the Chinese National People's Congress in Beijing 
passed a Basic Law for the Hong Kong Special Administrative Region,\3\ 
which came into effect in 1997; the President of the PRC subsequently 
promulgated this law. Among other provisions, this Basic Law contains 
guarantees of individual rights, leaving to future determination the 
precise means for enforcement of these rights.
---------------------------------------------------------------------------
    \3\ The Basic Law of the Hong Kong Special Administration Region of 
the People's Republic of China, adopted on 4 April 1990 by the Seventh 
National People's Congress of the People's Republic of China at its 
Third Session. [hereafter ``Basic Law''].
---------------------------------------------------------------------------
Current Rights Situation in Hong Kong
    Despite its status as one of the United Kingdom's last remaining 
colonies (or ``Dependent Territories,'' in quaint British usage), Hong 
Kong had come to enjoy considerable economic prosperity and rather 
extensive civil and political liberties during the two decades 
immediately preceding its return to Chinese sovereignty. The formal 
instruments of government were controlled by the appointed Governor; 
the nominal legislature, Hong Kong's Legislative Council, was hardly a 
democratic body. Its 56 members were either personally selected by the 
governor (20 non-official members) or elected by professional bodies 
and district boards (26 non-official members). An additional ten 
members were public servants, who served by virtue of their official 
positions (10 official members). Yet, despite the undemocratic nature 
of their selection, in the decade preceding 1997, the membership of the 
Legislative Council had come to include (by appointment and election) a 
reasonably large group of younger, outspoken members who voiced the 
concerns of the Hong Kong citizenry. Moreover, the obvious concern of 
the Hong Kong government for the wellbeing of its people--manifest in 
its commitment to public housing projects, mass transit and other 
infrastructural improvements and public health and social welfare--
convinced the populace of the benign intentions of their nonelected 
overseers.
    As a British colonial dependency, Hong Kong also enjoyed many of 
the protections of the unwritten English constitution and common law as 
well as the rule-of-law tradition. These were--to a great extent--
transplanted to Hong Kong and have taken root. The Hong Kong judiciary, 
particularly at its higher levels, was scrupulously honest and 
independent of (and resistant to) any executive or legislative 
interference with its adjudication. Significant indigenization of the 
judiciary and the legal profession has occurred over the past twenty-
five years; local Chinese professionals are well trained and already 
largely in control of these institutions. Until 1992, final appeals 
from the Hong Kong Court of Appeal were taken to the Privy Council in 
London; since that time, in preparation for Hong Kong's return to 
Chinese sovereignty in 1997, a new Final Court of Appeal was 
established. The Chinese government, among other guarantees, promised 
that Hong Kong could retain this legal system for at least 50 years 
after China recovers sovereignty over Hong Kong.

Some Issues Arising from Hong Kong's Return to Chinese Sovereignty
    As already noted, the United Kingdom and the People's Republic of 
China concluded a Joint Declaration with three annexes in 1984 under 
which Britain has agreed to restore Hong Kong to China on July 1, 1997. 
Hong Kong then became, pursuant to Article 31 of the Chinese 
constitution, a Special Administrative Region (SAR) of China and, in 
the words of the Joint Declaration, was expected to ``enjoy a high 
degree of autonomy, except in foreign and defense affairs, which are 
the responsibility of the Central People's Government.'' Following the 
ratification of the Joint Declaration in 1985, the National People's 
Congress of China, through an appointed Basic Law Drafting Committee 
(BLDC), undertook the writing of a Basic Law--in effect, a constitution 
for post-1997 Hong Kong--which was (among other things) to insure Hong 
Kong's autonomy: ``[T]he socialist system and socialist policies shall 
not be practiced in Hong Kong, and . . . Hong Kong's previous 
capitalist system and lifestyle shall remain unchanged for 50 years.''
    In connection with the transfer of sovereignty, the British 
government in Hong Kong attempted to establish a toehold for 
representative government in Hong Kong before 1997 by aiming for the 
direct election of at least ten members to the Legislative Council by 
1991, with further increases before 1997. Members of the pre-1997 
Legislative Council had proposed that at least 50 percent of the seats 
there should be directly elected by 1997, with a mechanism put in place 
to provide for 100 percent direct election by 2003. The last British 
Governor of Hong Kong, Chris Patten, proposed speeding up this 
timetable to provide more representative rule by 1995. China threatened 
to ``react'' to any precipitous rush toward participatory democracy in 
Hong Kong before 1997 as a hostile act. In crude, almost scatological, 
language that echoed the denunciatory harangues of the worst days of 
the Cultural Revolution, Patten, the British and any Hong Kong Chinese 
who sided with them were vilified repeatedly and at great length. The 
parallels with recent rhetoric emanating from Beijing is ominous.
    Moreover, before 1997, in response the outpouring of popular 
support in Hong Kong for the mainland pro-democracy demonstrators in 
1989 and thereafter, thinly veiled threats against Hong Kong 
individuals and groups issued from both the Chinese government and its 
representatives in Hong Kong. China stated that it would not allow Hong 
Kong to become a ``base for subversion'' against the People's Republic, 
although it has never made clear what activities it would count as 
subversive. Three successive drafts of the Basic Law were publicized, 
with little attempt to answer substantive criticisms of earlier drafts 
by responsible Hong Kong parties (and Hong Kong members of the BLDC). 
Two members of the BLDC who were also current members of the 
Legislative Council at that time, teachers' union leader Szeto Wah and 
lawyer Martin Lee, were expelled from the BLDC and accused of 
``counter-revolutionary activities'' for their involvement in protests 
against the 1989 massacre in and around Tiananmen Square. A Bill of 
Rights for Hong Kong, which was supposed to be published in January 
1990 by the Hong Kong Government, was delayed because of mainland 
pressure. When it was eventually adopted in June, 1991, the Chinese 
authorities announced that it would not bind them after 1997 and that 
they felt free to reject any or all of it after the resumption of 
Chinese sovereignty. So much for guarantees that Hong Kong's pre-1997 
legal system would continue in force!

A Brief History of PRC Interference in Hong Kong Governance
    Almost immediately after the establishment of the People's Republic 
of China on the mainland in 1949, the Chinese government began a 
program of infiltration and sought to wield influence over the affairs 
of the British colony which remained in Hong Kong. Once it became clear 
that the British were not leaving Hong Kong, China reached a modus 
vivendi with the British colonial government which permitted China, 
isolated from much of the world after the Korean War, to use Hong Kong 
as a kind of entrepot for contact with the non-socialist world. Much of 
China's foreign exchange was earned through Chinese-controlled 
enterprises based in Hong Kong and from direct sales to Hong Kong of 
basic commodities. Surplus population and individual malcontents were 
allowed to flee across China's border with Hong Kong; eventually, 
almost two million refugees entered Hong Kong from 1949 until the late 
1960s. Whatever hopes China might have had that such an influx would 
destabilize Hong Kong and encourage the British to leave were dashed by 
Hong Kong's resilience; resources were mobilized to house and maintain 
at a subsistence level the colony's swelling population.
    At the end of the 1960s, China's ``Great Proletarian Cultural 
Revolution'' washed over into Hong Kong briefly, as political radicals 
sought to achieve--in line with then-current political thinking on the 
mainland--the immediate revolutionary transformation of Hong Kong and 
the expulsion of the colonial power. Militant trade unionists and other 
pro-mainland activists tried their best to turn the populace against 
the British, but to no avail. After a brief period of disorder, the 
government firmly re-established its control. Successive temporary 
waves of immigrants from the mainland recurred, but they were easily 
absorbed by Hong Kong's growing economy.
    By the early 1980s, attention began to focus on the 1997 deadline 
for return of the leased New Territories (which account for over 90 
percent of Hong Kong's total land area) to China under the terms of an 
1898 treaty. China made it clear that it would not countenance any 
continuation of British control and that it intended to resume 
sovereignty. As a practical matter, the rest of Hong Kong would have to 
revert along with the New Territories. Initial resistance to China's 
stance, contemplated by then-British Prime Minister Thatcher (flush 
from her victory in the Falklands), was later prudently abandoned in 
the face of Chinese resolve. A handful of senior Hong Kong Chinese 
officials were promised full British passports and residency in 
Britain, but only a pitiful number availed themselves of the offer. On 
the other hand, the basic human rights of the rest of Hong Kong's 
people were left to the determination of the same Chinese leaders who 
ordered the People's Liberation Army to fire on students in Tiananmen 
Square. From an international human rights perspective, this was 
clearly unacceptable; however, the international community, which at 
that same time was scarcely bestir itself to worry about Bosnia and 
Somalia in the throes of all-out war, proved unable to focus upon a 
possible crisis in Hong Kong years before its return to the mainland.

Reasons for the Current Concern Over Democracy in Hong Kong
    Hong Kong's Basic Law, often described as a ``mini-constitution,'' 
which was agreed by both sides before the handover, allows the 
possibility of direct elections for the Chief Executive and all of its 
Legislative Council from 2007. But it also says Beijing must approve 
any electoral changes, which means China has the final say. China's 
Communist Party clearly fears growing demands for full democracy could 
threaten its control over the territory and possibly spread to mainland 
China. Some mainland officials have said they doubt Hong Kong's 
patriotism after a massive protest against the local Bejing-backed 
government last year. The march drew half a million people into the 
streets to denounce attempts by Hong Kong leader Tung Chee-hwa to push 
through an unpopular anti-subversion bill. As the Chairman well knows, 
having co-sponsored a Joint Resolution in the Senate last summer 
expressing support for democracy in Hong Kong, both the legislative and 
executive branches of the United States government have expressed 
serious concerns about compliance with, and implementation of, the 
Joint Declaration and the Basic Law in the light of these 
experiences.\4\
---------------------------------------------------------------------------
    \4\ S.J. Res. 14, ``Expressing support for freedom in Hong Kong,'' 
In the Senate of the United States, 108th Congress, 1st Session, June 
27, 2003.
---------------------------------------------------------------------------
    Notwithstanding these wide-ranging differences, there remains a 
great deal of common interest between the United States and the PRC in 
the resolution of other numerous issues which may make the PRC heed 
expressions of concern over the smooth transition in Hong Kong in the 
runup to 2007. On the regional level, continuing peace and prosperity 
in East and Southeast Asia and even free access to the high seas to the 
east and south of the PRC will require China to maintain stability, 
balance and positive engagement with the international community.
    Below, I attempt to examine just a few problem areas with regard to 
pace of democratization in Hong Kong, and the legal underpinnings of 
the claims made by both pro-democracy forces and representatives of the 
PRC insofar as the gradual introduction of self-governance was promised 
to Hong Kong, to evaluate their current status and to weigh various 
options for possible progress.

 THE LEGAL AND POLICY BASES FOR DEMOCRATIZATION IN HONG KONG AFTER 1997

    Under the Sino-British Joint Declaration of 1984, Hong Kong 
returned to Chinese rule in 1997 with the understanding it would 
maintain limited self-government and be allowed to enjoy its capitalist 
way of life at least until 2047. The current Chief Executive, C.H. 
Tung, was installed for five years, and again in 2002 for a second 
term, after being selected by a pro-Beijing electoral committee. Hong 
Kong's local laws are passed by a 60-member Legislative Council, but 
only 24 of its members are directly elected by Hong Kong voters. The 
rest are selected by an electoral committee or by groups called 
``functional constituencies,'' representing a small segment of the 
total population of seven million. Ironically, the same Basic Law that 
required the government to enact the security legislation which proved 
so broadly unpopular last summer also calls for it to pursue greater 
democracy by 2007. Yet Tung's attempts to push ahead with the security 
laws, while not moving on the democratization, has left many in the 
territory frustrated and suspicious.
    Rev. Louis Ha, a Roman Catholic priest, has said that the aim of 
the protests has been to promote the drive for universal suffrage, as 
well as to educate people about democracy, and encourage democratic 
values such as tolerance and respect in peoples' everyday lives. The 
Catholic bishop of Hong Kong, head of Hong Kong's 230,000 Catholics, 
has also appealed to the government to listen to the voices of the 
people. ``Hong Kong people have the quality and ability to rule 
ourselves,'' he has been quoted as saying. ``Give us a chance to show 
the whole world that we will do well on our own.'' \5\
---------------------------------------------------------------------------
    \5\ Fr. Ha is editor of the Catholic periodical, Kung Kao Po, as 
well as a member of the Democratic Development Network (DDN) that 
formed last summer in Hong Kong. See <http://www.cnsnews.com/ 
ViewForeignBureaus.asp?Page=/ForeignBureaus/
archive/200307/FOR20030714c.html>
---------------------------------------------------------------------------
RECENT DEVELOPMENTS AFFECTING PROSPECTS FOR HONG KONG'S DEMOCRATIZATION

    Communist China welcomed back Hong Kong in 1997 under its ``one 
country, two systems'' policy, whereby Hong Kong people could still 
enjoy a bustling free press, freedom of speech and religion, and rule 
of law. It promised a fair degree of autonomy, and with Britain drafted 
Hong Kong's the basic law. But when it comes to the ``one country, two 
systems'' policy under which Britain handed Hong Kong over in 1997, 
there's a wide gulf between the aspirations of the majority in Hong 
Kong and China's authoritarian rulers. What's happening now in China is 
about the next steps toward democratization in Hong Kong in 2007. 
Democracy is being debated. What's being talked about is the right of 
Hong Kong citizens in 2007 to elect a Chief Executive, like an American 
state governor, of their own choice.
    Hong Kong is not a full democracy. Under a complex system carried 
over from British colonial days, only some politicians are freely 
elected, while trade groups and China also have their say. People do 
not directly elect the Chief Executive. But over the past year, 
hundreds of thousands of Hong Kong citizens have expressed their desire 
for greater democracy. As many as 100,000 people took to the streets on 
New Year's day, and 500,000 did so on July 1st last year. Under 
pressure, Chief Executive Tung Chee-hwa, last year promised to draw up 
plans for a consultation process on the possible introduction of direct 
elections in 2007. Pursuant to the Basic Law, 2007 is the earliest 
chance for constitutional reform and movement towards the ultimate goal 
of direct elections. The Basic Law provides that after 2007 major 
changes to the constitutional framework in Hong Kong may take place, 
the ultimate aim of these changes being the election of the Chief 
Executive and the Legislative Council by direct election.
    Last month, a Hong Kong task force finished three rounds of talks 
with leaders in Beijing on the future of democracy in the territory. 
Hong Kong's Chief Secretary for Administration Donald Tsang and his 
team completed the talks after their meeting with the Chinese 
parliament, the National People's Congress, to seek their advice on 
holding full elections in Hong Kong by 2007. The Chief Secretary said 
of his mission, ``The most important thing of the trip is to give us an 
opportunity to express the public opinion. I think we have reached that 
target,'' he told reporters, calling the result of the meeting 
``satisfactory.'' Tsang said Beijing wants thorough discussions on 
principles before Hong Kong proceeds with its constitutional 
development and a web page would be established to seek further public 
opinion on the issues. Chinese leaders have appeared non-committal on 
the issue, questioning only whether Hong Kong actually wanted universal 
suffrage.
    The task force was created by Hong Kong Chief Executive Tung Chee-
hwa early this year, following the street protests last summer calling 
for a speedier transition to universal suffrage in the territory.
    Reportedly, China will not allow Hong Kong to choose its next 
leader through full elections, according to a local press report that 
quoted unnamed sources close to the Beijing leadership. Also a 
consultation exercise to seek the public's view on increased democracy 
in the city was just a ``show'' intended to placate the pro-democracy 
camp, the South China Morning Post (SCMP) has reported. The source told 
the SCMP that Beijing would draw up its own plan to guide what form the 
next selection process for the city's chief executive would take in 
2007.
    A three-day trip to Beijing last month by a task force charged with 
seeking the Chinese leadership's opinion on the issue ended in near 
farce when China's top leaders snubbed the delegation. Beijing later 
poured cold water on democracy hopes, saying it would have the final 
say in how Hong Kong chooses its next leader and that ``patriots'' 
would rule the territory. That sparked hot debate on what defined a 
patriot and whether China would consider anti-government campaigners 
patriotic enough to allow them to stand in any election. Beijing is 
also expected to take a tougher position on Hong Kong if pro-democracy 
forces become the dominant power in the territory's top law-making body 
in elections in September and then work against China-backed leaders, 
according to unidentified sources. In 1997, Beijing established a 
provisional legislature and effectively dismantled electoral changes 
made by Britain in the waning years of colonial rule.
Post-2007 Political Reform and Democratization in Hong Kong.
    Hong Kong's constitutional journey has been unique. Most former 
colonies were released from their imperial power decades ago; Hong Kong 
was almost the last major territory to achieve such status. 
Furthermore, these former colonies became independent and replaced 
their former colonial administration with the institutions of 
democratic government. Hong Kong was absorbed by another sovereign 
power, and preserved its former administration almost unchanged. In 
Hong Kong's case, in fact, a virtue was made of continuity with the 
colonial era. Many civil servants simply carried over.
    Then, why does Hong Kong need reform? Hong Kong has an established 
system of rights and operates by the rule of law. It enjoys a high 
standard of living and--aside from the recent recession--consistently 
high levels of economic growth. Although many people express discontent 
with the Government, there are no signs of mass unrest. And the PRC, as 
sovereign, would have to be persuaded of the benefits of any reform. Is 
it worth expending energy on the constitutional reform project? Some 
have suggested that the current system might continue for several more 
decades, with full suffrage and direct elections coming at the end of 
the fifty-year period, say in 2037, rather than ``as early as'' 2007.
    Hong Kong's governance today is essentially that of a colonial 
administration, a form more appropriate to the nineteenth than to the 
twenty-first century. The relatively favorable outcome of this 
governance to date--at least in terms of living standards and rights--
should be regarded as exceptional. Particularly in the light of the few 
spectacular glaring failures of the Tung administration, it is 
definitely not something that can be relied upon for the long term. 
Also, under British rule there were certain checks and balances on Hong 
Kong's colonial governance system, such as accountability to the 
democratically-elected British Parliament. In that position today is 
China's National People's Congress, a far different institution. It is 
not clear that in Hong Kong's present situation the continued enjoyment 
of human rights, the rule of law, and ultimately of living standards, 
can be assured.
    By its own terms the constitution mandated by the Basic Law should 
begin to change--with a gradual expansion of directly elected seats in 
the legislature and a progression, albeit without a definite timetable, 
towards full democracy. As Hong Kong approaches the ten-year 
anniversary of its handover, it is only common sense to plan for these 
changes. Secondly, Hong Kong's governance structure increasingly seems 
inherently unstable: a legislature enjoying an gradually growing 
mandate from the people but little power, facing an executive selected 
by a narrowly-based committee which wields very considerable power. It 
is highly unlikely that such a situation can accommodate the changes 
that lie ahead. Finally, recent experience with the HKSAR's response to 
SARS and the Article 23 legislation reveals how far Hong Kong needs to 
reform over the long term.

The Chief Executive
    Hong Kong's executive model is that of a colonial administration, 
similar to the former administrations of Britain's other ex-colonies. 
The civil service wields both substantial power of policy-making and 
power to administer policies. The Chief Executive is selected by an 
Election Committee which is in turn selected by the Mainland Chinese 
authorities or under their auspices--the latter process being conducted 
in secrecy. With the departure of British administrators, many Hong 
Kong residents believe that the executive tends to represent the 
interests of local business elite. At the same time, the 
democratically-elected portion of the legislature appear to represent 
the ``have-nots,'' pressing for social-welfare policies such as a 
minimum wage, more public housing, lower government charges and fees. 
This tends to polarize policy debates in the HKSAR.
    As provided in the Basic Law, the Chief Executive is expected to be 
chosen by direct election eventually, even though the initial selection 
process provides for the narrower and less democratic committee-
selection process. Article 45 spells out the details:

        Article 45

          The Chief Executive of the Hong Kong Special Administrative 
        Region shall be selected by election or through consultations 
        held locally and be appointed by the Central People's 
        Government.
          The method for selecting the Chief Executive shall be 
        specified in the light of the actual situation in the Hong Kong 
        Special Administrative Region and in accordance with the 
        principle of gradual and orderly progress. The ultimate aim is 
        the selection of the Chief Executive by universal suffrage upon 
        nomination by a broadly representative nominating committee in 
        accordance with democratic procedures.
          The specific method for selecting the Chief Executive is 
        prescribed in Annex I: ``Method for the Selection of the Chief 
        Executive of the Hong Kong Special Administrative Region.'' \6\
---------------------------------------------------------------------------
    \6\ The text of Annex I is appended at the end of this testimony.

    Moreover, the Basic Law envisages an executive accountable to the 
legislature (Article 64).

The Legislature
    The Basic Law sets out a program for increasing the proportion of 
legislators elected by direct election. This was meant to increase the 
popular mandate and legitimacy of the legislature. Increasing power for 
the Hong Kong Legislative Council, or Legco, might follow the 
trajectory of the European Parliament, which when established had 
little power, but gradually took more power. Also, being directly 
elected, the European Parliament enjoyed greater legitimacy than the 
other European governmental institutions, parallel to the experience in 
Hong Kong.
    The majority of Legco's members are not directly elected and tend 
to side with the government. Legco's voting procedures also handicap 
its effective performance. The Hong Kong Legco also has almost as many 
committees as a large developed country parliament like the UK, but 
only one-tenth as many legislators. In the 2000 Legco, 30 seats are 
from Functional Constituencies (professional groups, business and other 
sectors) and 10 are selected by an Election Committee. In countries 
with bicameral legislatures, frequently members of one chamber are 
selected other than by geographical direct election. For example, the 
House of Lords in Britain includes not only hereditary and appointed 
Lords but also bishops. The United States Constitution provides every 
State with two Senators, while member of the House of Representatives 
are elected proportionally to population. Yet, in most countries, these 
second chambers are with another chamber which is fully directly-
elected. Hong Kong's Functional Constituency and Election Committee 
elections to the legislature are almost unique.
    The Election Committee will not be used again. But by 2007, unless 
there is some change, the 30 Functional Constituency seats will 
continue to exist. This functional constituency system is highly 
anomalous. In 1998--among other shortcomings--10 out of 28 functional 
constituencies were unopposed, while many others were returned by a 
``small circle'' of individual voters or by companies under common 
control. Three ways have been suggested to address the issue of Hong 
Kong's functional constituencies: abolition (arguing that they are 
anachronistic and should simply be abolished); reform (to make them 
more democratic and representative of the people); or dilution (to 
reduce their influence by creating more directly elected seats). Any of 
these solutions would be preferable to maintenance of the status quo.
    Here again, the Basic Law contemplates eventual movement towards 
fully representative government. Article 68 makes clear its ``ultimate 
aim'':

        Article 68

          The Legislative Council of the Hong Kong Special 
        Administrative Region shall be constituted by election.
          The method for forming the Legislative Council shall be 
        specified in the light of the actual situation in the Hong Kong 
        Special Administrative Region and in accordance with the 
        principle of gradual and orderly progress. The ultimate aim is 
        the election of all the members of the Legislative Council by 
        universal suffrage.
          The specific method for forming the Legislative Council and 
        its procedures for voting on bills and motions are prescribed 
        in Annex II: ``Method for the Formation of the Legislative 
        Council of the Hong Kong Special Administrative Region and Its 
        Voting Procedures.'' \7\
---------------------------------------------------------------------------
    \7\ The full text of Annex II is appended at the end of this 
testimony.
---------------------------------------------------------------------------
The Judiciary
    As the post-1997 experience has made painfully clear, the 
independence of the judiciary cannot be relied upon when the power of 
the Executive is as pervasive as it is in Hong Kong. It is ultimately 
unreasonable, in the absence of other strong institutions of 
government, to expect individual judges to resist the executive. The 
independence of the judiciary needs to be buttressed by strengthening 
other institutions such as the legislature.
    Most notoriously, the judiciary's independence was circumscribed 
after 1997 by the outcome of the Ng Ka Ling case, which arose out of a 
challenge to a local Hong Kong immigration statute severely inhibiting 
right of abode in Hong Kong (guaranteed in the Basic Law) for children 
born to parents resident in Hong Kong.\8\ Exercising its power of 
constitutional judicial review to overturn several provisions which 
derogated that right, the Court declared it would take a purposeful and 
generous approach to interpreting constitutional rights guaranteed in 
the Basic Law. In its judgment, the Court also explicitly declared that 
in deciding such disputes the Court of Final Appeal (CFA) would have to 
determine when to refer provisions respecting local-central relations 
or matters of central authority to the Standing Committee of the 
NPC.\9\ The court concluded it was not required in this case.
---------------------------------------------------------------------------
    \8\ Article 24 of the Basic Law (the first Article in the chapter 
entitled ``Chapter III: Fundamental Rights and Duties of the 
Residents'') provides that Hong Kong residents include ``persons of 
Chinese nationality born outside of Hong Kong'' of Hong Kong residents. 
Under the Article, such residents are entitled, as are other Hong Kong 
residents, to the right of abode and a permanent identity card. Suit 
was initiated by several children who claimed that their basic right of 
residence was effectively denied under a newly enacted immigration 
ordinance which required them to apply on the mainland for an exit 
permit.
    \9\ Basic Law, art. 158.
---------------------------------------------------------------------------
    The HKSAR government, at Chief Executive Tung's direction, filed a 
motion for the CFA to ``clarify'' its judgment declaring its power to 
examine acts of the NPC. In a second brief judgment, the Court 
explicitly stated that it did not hold itself above the NPC, 
essentially restating its original position.\10\
---------------------------------------------------------------------------
    \10\ Ng Ka Ling v. Director of Immigration, Court of Final Appeal, 
Final Appeal No. 14 of 1998 (Feb. 26, 1999).
---------------------------------------------------------------------------
    A more serious attack on the judgment and the rule of law occurred 
in May 1999 when the government, after issuing a report claiming the 
judgment would produce a flood of 1.67 million migrants into Hong Kong, 
made a request to the Standing Committee of the NPC to interpret the 
relevant provisions of the Basic Law, effectively seeking to overturn 
the CFA judgment.\11\ As a result of this end-run around the CFA, the 
finality of judgments of the CFA in Hong Kong has clearly been called 
into question and the rule of law has been put in doubt. Full 
confidence in the rule of law requires both respect for the authority 
of the CFA and confidence in its genuine ability to render final 
judgments.
---------------------------------------------------------------------------
    \11\ The government's decision to undermine a Final Court Judgment 
has produced strong condemnation from the Democratic camp, the Bar and 
leading constitutional scholars. Michael C. Davis, ``Home to Roost,'' 
South China Morning Post, May 16, 1999, at 10.
---------------------------------------------------------------------------
A Note on Human Rights
    These are enshrined in the Basic Law and in statute, and protected 
by the courts. However, Article 23 of the Basic Law on subversion--
which occasioned such controversy last summer when attempts were made 
to push through legislation implementing it--and other provisions such 
as those enabling the Chinese Central Government to intervene in Hong 
Kong's affairs (Article 18) and to interpret the Basic Law (Article 
158), the superior privileges of ``Chinese citizens'', set limits on 
the enjoyment of human rights. In practice, the non-democratic nature 
of government and the power of the executive pose further dangers. 
Also, with regard to the media, there are important issues of 
newspapers' self-censorship and censorship by newspaper owners which 
affect the actual enjoyment of freedoms guaranteed by the Basic Law and 
international human rights agreements.

Conclusion
    The Basic Law of Hong Kong provides for the possibility of 
instituting full direct popular democracy in 2007. Hong Kong is, 
therefore, at a stage where it makes eminent good sense to look 
forward, to ask what type of political arrangements should be made for 
the next steps in its democratic development, and to begin planning. 
For Hong Kong, the issue is not whether to have or not have democracy 
or constitutionalism; these institutional commitments are provided in 
an international agreement, the Sino-British Joint Declaration. 
Furthermore, Hong Kong's own popular commitment to democracy, human 
rights and the rule of law favors liberal constitutional democracy.\12\ 
Fundamental to Hong Kong's economic future is the widely acknowledged 
fact that human rights and the rule of law give economic actors more 
confidence in the system. Moreover, democratic countries are better 
able to respond to crises such as the late-1990s' East Asian economic 
crisis and the more recent SARS.
---------------------------------------------------------------------------
    \12\ Michael C. Davis, ``Constitutional Theory and Hong Kong 
Practice,'' paper delivered at Hong Kong Democratic Foundation seminar 
titled ``Thinking about 2007,'' October 21, 2000. See <http://
www.hkdf.org/seminars/001021/01oct21.htm>
---------------------------------------------------------------------------
    The 1984 Sino-British Joint Declaration provides for democratic 
rights, as well as incorporating in Hong Kong international human 
rights covenants.\13\ In practice, since the hand-over, there have been 
some problematic developments and failures to make progress. The 
current electoral system works to the advantage of a tiny elite. A two-
thirds majority of the Legco would have to vote to institute full 
universal suffrage after 2007. Even amendments to government bills, 
proposed by legislators, require the Chief Executive's approval to be 
considered. Even more problematic is the fact that amendment of the 
Basic Law is vested in the National People's Congress (NPC).\14\
---------------------------------------------------------------------------
    \13\ Joint Declaration, para. 3(5) & Annex I, art. XIII.
    \14\ Basic Law, art. 159.
---------------------------------------------------------------------------
    Attacks on the judicial independence is probably the greatest 
causes for concern about continued protection of human rights. On the 
other hand, continued exercise of freedom of speech and association is 
the greatest cause for optimism. The 1991 Bill of Rights Ordinance 
remains in force after the handover, minus certain key provisions; it 
copies almost verbatim the International Covenant on Civil and 
Political Rights (ICCPR).\15\ At least, the PRC government continues to 
file reports on behalf of Hong Kong under the international human 
rights covenants. Yet, as is clear from the concerns expressed above 
about the willingness of both the PRC and Hong Kong governments to 
follow through on settled expectations about the pace of 
democratization in the HKSAR, much more remains to be done. Judiciously 
applied, foreign pressure to maintain the pace established by the 
HKSAR's foundational documents can encourage progress for the millions 
of Hong Kong residents whose democratic aspirations should not be 
dashed.
---------------------------------------------------------------------------
    \15\ Hong Kong Bill of Rights Ordinance, No. 59 (1991) reprinted in 
30 Int'l. Leg. Mats. 1310 (1991); International Covenant on Civil and 
Political Rights, 6 Int'l. Leg. Mats. 368 (1967).

  The Basic Law of the Hong Kong Special Administrative Region of the 
                       People's Republic of China

 ANNEX I: METHOD FOR THE SELECTION OF THE CHIEF EXECUTIVE OF THE HONG 
                   KONG SPECIAL ADMINISTRATIVE REGION

    1. The Chief Executive shall be elected by a broadly representative 
Election Committee in accordance with this Law and appointed by the 
Central People's Government.
    2. The Election Committee shall be composed of 800 members from the 
following sectors:

  Industrial, commercial and financial sectors--200
  The professions--200
  Labour, social services, religious and other sectors--200
  Members of the Legislative Council, representatives of district-based 
            organizations, Hong Kong deputies to the National People's 
            Congress, and representatives of Hong Kong members of the 
            National Committee of the Chinese People's Political 
            Consultative Conference--200

The term of office of the Election Committee shall be five years.

    3. The delimitation of the various sectors, the organizations in 
each sector eligible to return Election Committee members and the 
number such members returned by each of these organizations shall be 
prescribed by an electoral law enacted by the Hong Kong Special 
Administrative Region in accordance with the principles of democracy 
and openness.
    Corporate bodies in various sectors shall, on their own, elect 
members to the Election Committee, in accordance with the number of 
seats allocated and the election method as prescribed by the electoral 
law.
    Members of the Election Committee shall vote in their individual 
capacities.
    4. Candidates for the office of Chief Executive may be nominated 
jointly by not less than 100 members of the Election Committee. Each 
member may nominate only one candidate.
    5. The Election Committee shall, on the basis of the list of 
nominees, elect the Chief Executive designate by secret ballot on a 
one-person-one-vote basis. The specific election method shall be 
prescribed by the electoral law.
    6. The first Chief Executive shall be selected in accordance with 
the ``Decision of the National People's Congress on the Method for the 
Formation of the First Government and the First Legislative Council of 
the Hong Kong Special Administrative Region.''
    7. If there is a need to amend the method for selecting the Chief 
Executives for the terms subsequent to the year 2007, such amendments 
must be made with the endorsement of a two-thirds majority of all the 
members of the Legislative Council and the consent of the Chief 
Executive, and they shall be reported to the Standing Committee of the 
National People's Congress for approval.

 ANNEX II: METHOD FOR THE FORMATION OF THE LEGISLATIVE COUNCIL OF THE 
   HONG KONG SPECIAL ADMINISTRATIVE REGION AND ITS VOTING PROCEDURES

I. Method for the formation of the Legislative Council
    1. The Legislative Council of the Hong Kong Special Administrative 
Region shall be composed of 60 members in each term. In the first term, 
the Legislative Council shall be formed in accordance with the 
``Decision of the National People's Congress on the Method for the 
Formation of the First Government and the First Legislative Council of 
the Hong Kong Special Administrative Region.'' The composition of the 
Legislative Council in the second and third terms shall be as follows:

    Second term

  Members returned by functional constituencies--30
  Members returned by the Election Committee--6
  Members returned by geographical constituencies through direct 
            elections--24

    Third term

  Members returned by functional constituencies--30
  Members returned by geographical constituencies through direct 
            elections--30

    2. Except in the case of the first Legislative Council, the above-
mentioned Election Committee refers to the one provided for in Annex I 
of this Law. The division of geographical constituencies and the voting 
method for direct elections therein; the delimitation of functional 
sectors and corporate bodies, their seat allocation and election 
methods; and the method for electing members of the Legislative Council 
by the Election Committee shall be specified by an electoral law 
introduced by the Government of the Hong Kong Special Administrative 
Region and passed by the Legislative Council.

II. Procedures for voting on bills and motions in the Legislative 
        Council
    Unless otherwise provided for in this Law, the Legislative Council 
shall adopt the following procedures for voting on bills and motions:
    The passage of bills introduced by the government shall require at 
least a simple majority vote of the members of the Legislative Council 
present.
    The passage of motions, bills or amendments to government bills 
introduced by individual members of the Legislative Council shall 
require a simple majority vote of each of the two groups of members 
present: members returned by functional constituencies and those 
returned by geographical constituencies through direct elections and by 
the Election Committee.

III. Method for the formation of the Legislative Council and its voting 
        procedures subsequent to the year 2007
    With regard to the method for forming the Legislative Council of 
the Hong Kong Special Administrative Region and its procedures for 
voting on bills and motions after 2007, if there is a need to amend the 
provisions of this Annex, such amendments must be made with the 
endorsement of a two-thirds majority of all the members of the Council 
and the consent of the Chief Executive, and they shall be reported to 
the Standing Committee of the National People's Congress for the 
record.

                                 ______
                                 

                          Thinking About 2007

    The formal institutions of government, namely the constitution, the 
executive, the legislature, the judiciary, and the electoral system. 
Hong Kong's constitutional journey is in specifics unique. Most former 
colonies were released from their imperial power decades ago; Hong Kong 
was almost the last major territory to achieve such release. Further, 
these former colonies mostly achieved independence and replaced their 
former colonial administration with the institutions of democratic 
government. Hong Kong was absorbed by another sovereign power, and 
preserved its former administration almost unchanged. Indeed, in Hong 
Kong's case a virtue was made of continuity with the colonial era.

                          THE NEED FOR REFORM

    Hong Kong has an established system of rights and operates by the 
rule of law. It enjoys a high standard of living and--the recent 
recession apart--a high level of economic growth. Although many people 
express discontent with the Government, there are no signs of mass 
unrest. And Mainland China, the sovereign, would have to be persuaded 
of the benefits of any reform. Is it worth expending the energy of the 
people on the constitutional reform project?
    Hong Kong's governance is essentially that of a colonial 
administration, a form more appropriate to the nineteenth than to the 
twenty-first century. The relatively favorable outcome of this 
governance to date in terms of living standards and rights should be 
regarded as exceptional--more a matter for congratulation than 
something that can be relied upon for the long term. It should perhaps 
also be remembered that under British rule there were certain checks 
and balances on Hong Kong's colonial governance system, such as 
accountability to the democratically-elected British Parliament. It is 
not clear that in Hong Kong's present situation the continued enjoyment 
of human rights, the rule of law, and ultimately of living standards, 
can be assured.
    Even on its own terms the constitution mandated by the Basic Law is 
in the process of change--with a gradual expansion of directly elected 
seats in the legislature and a progression, albeit without a definite 
timetable, towards full democracy. It would seem imprudent not to plan 
for these changes. Secondly, Hong Kong's governance structure would 
appear inherently unstable: a legislature enjoying an increasing 
mandate from the people but little power, facing an executive selected 
by a narrowly-based committee which wields very considerable power. New 
ideas and mechanisms are surely needed to make even the current 
structure operate successfully, let alone to accommodate the changes 
that lie ahead. Thirdly, the review of contemporary constitutional 
experience provided by the Workshop reveals just how far Hong Kong is 
from being an optimal polity. Reform can bring substantially greater 
fulfillment to the people, and assure greater stability and prosperity 
for community in the long term.

1. Institutions of Government
1.1 Constitution
    Comparison of Hong Kong's constitution, the Basic Law, with those 
of other polities reveals shortcomings. However, it should first be 
asked, what kind of a document is the Basic Law? Most constitutions are 
written by and on behalf of the peoples of states that are independent, 
or that are to become independent. Hong Kong, however, is an entity 
within a state, and its constitution was written for it by 
representatives of the current sovereign power, China, within 
parameters agreed with the former sovereign, Britain. The Basic Law, as 
a document, thus has characteristics of a charter conferred on the 
people by the sovereign, perhaps analogous to the charters granted to 
certain cities in Medieval Europe. At any rate, development or 
replacement of the Basic Law cannot be considered in isolation, but 
involves the consent and perhaps the participation of the sovereign 
power. Ultimately, there must be the question of convergence between 
the constitution of the satellite and that of the sovereign.
    The Basic Law does not express the aspirations or fundamental will 
of the people. Hence it does not show how power flows from the people. 
It does not show what in deepest terms Hong Kong is about. Most 
constitutions set out such aspirations in their preamble to provide a 
framework for the specific provisions that follow.
1.2 Executive
    As already stated, Hong Kong's executive largely follows the form 
of a colonial administration, similar to the former administrations of 
Britain's other ex-colonies. The civil service wields both substantial 
power of policy-making and power to administer policies. The Chief 
Executive is selected by an Election Committee which is in turn 
selected by the Mainland Chinese authorities or under their auspices--
the latter process being conducted in secrecy.
    Essentially, with the departure of British administrators, it would 
appear that the executive tends to represent the interests of local 
business elite, the ``haves''. The thrust of the executive's policy 
formulation--for example, in areas such as land use, the absence of a 
competition law, neglect of anti-pollution regulations, etc.--rends to 
align with the wishes of the business elite. And the democratically-
elected portion of the legislature would appear to represent the 
``have-nots''. These legislators tend to press for welfare-type 
policies such as a minimum wage, more public housing, lower government 
charges. This already anomalous situation could be exacerbated by any 
further concentration of power within the executive. Such further 
concentration might be more divisive to Hong Kong society, and result 
in more polarised debate over policy.
    Rather, the Basic Law envisages an executive accountable to the 
legislature (Article 64).
1.3 Legislature

Power of legislature
    The Basic Law sets the direction of increasing the proportion of 
legislators elected by direct election. As discussed above, this means 
increasing the popular mandate and legitimacy of the legislature. If 
stability and proportionality in the governmental system--and in 
society as a whole--is to be maintained, it would appear that the 
increasing mandate of the legislature should be matched by its 
increasing power. Speakers at the Workshop drew attention to the 
European Parliament which on establishment had little power, but 
gradually took more power to itself because, being directly elected, it 
had higher legitimacy than the other European governmental 
institutions.

The composition of Legco.
    The majority of its members are not directly elected and tend to 
side with the government. Legco's voting procedures--the requirement 
for the geographical seatholders and the others to approve separately 
each motion--are also a handicap to effective performance. This was 
demonstrated by the failure in October 2000 to come to a view on 
whether or not to approve the vote of thanks for the Chief Executive's 
Policy Address.
    Committee procedure. It was pointed out that in the UK, 
Parliamentary committees do most of the work in debating and if 
necessary modifying a bill, so that when it comes to the House for a 
reading, it's rare for further amendments to be made or for significant 
further debate to be necessary. However, in Hong Kong, amendments are 
rarely made as a result of committee input. As a result that the 
reading of the bill in the full session of Legco to some extent 
duplicates, or renders redundant, the work of the respective committee.
    Ratio of committees to legislators. The Hong Kong legislature has 
almost as many committees as a large developed country parliament like 
the UK, yet one-tenth as many legislators. This means heavy demands on 
the time of individual legislators, and presumably correspondingly 
lower quality of input into debate. One option would be to increase the 
number of Legislative Council seats. However, in order to maintain 
public confidence in value for money, any such increase in the number 
of legislators should probably not come before an increase in the 
powers and functions of the legislature.

                       FUNCTIONAL CONSTITUENCIES

    In the 2000 Legco, 30 seats are from Functional Constituencies and 
10 are selected by an Election Committee. In polities with second 
chambers, the second chamber frequently does have members selected 
other than by geographical direct election. For example, the House of 
Lords in Britain includes not only hereditary and appointed Lords but 
also bishops. However, such narrowly-based second chambers are 
supplementary to the primary chamber which is fully directly-elected. 
Hong Kong's Functional Constituency and Election Committee elections to 
the legislature are almost unique.
    The Election Committee will not be used again. But by 2007 there 
will still be 30 Functional Constituency seats. The Workshop felt the 
functional constituency system to be highly anomalous. Among the 
shortcomings noted was the fact that in 1998, 10 out of 28 FCs were 
unopposed, while many others were returned by a ``small circle'' of 
individual voters or by companies under common control. The Workshop 
suggested three ways to address the issue of Hong Kong's functional 
constituencies.
    Abolition (anachronistic and should simply be abolished); reform 
(make them more democratic and representative of the people); dilution 
(reduce their influence by creating more directly elected seats).

1.4 Judiciary
    Two points were made:

    Firstly, Hong Kong needs a constitutional court.
    Secondly, the independence of the judiciary cannot be relied upon 
when the power of the Executive is as pervasive as it is in Hong Kong. 
It is ultimately unreasonable, in the absence of other strong 
institutions of government, to expect individual judges to resist the 
executive. The independence of the judiciary needs to be buttressed by 
strengthening other institutions such as the legislature.

Human rights. These are enshrined in the Basic Law and in statute, and 
        protected by the courts. However, Article 23 of the Basic Law 
        on subversion, and other provisions such as those enabling the 
        Chinese Central Government to intervene in Hong Kong's affairs 
        (Article 18) and to interpret the Basic Law (Article 158), the 
        superior privileges of ``Chinese citizens'', set limits on the 
        enjoyment of human rights. In practice, the non-democratic 
        nature of government and the power of the executive pose 
        further dangers.

Media. Important issues include the proliferation of newspapers, self-
        censorship, censorship by newspaper owners, the role of the 
        press council, training and quality of journalists, shortfall 
        of investigative journalism, and the social standing of 
        journalists.

    Senator Brownback. It is a good point.
    Ms. Bork.

STATEMENT OF ELLEN BORK, DEPUTY DIRECTOR, THE PROJECT FOR A NEW 
                        AMERICAN CENTURY

    Ms. Bork. Thank you very much. It is a pleasure to be here.
    I am going to move right to a couple of points, developing 
a point that Jim Feinerman made about Beijing's interference in 
Hong Kong and the appropriate U.S. response. For a number of 
years I have observed that the United States policy effectively 
embraces Beijing's terms for Hong Kong's governance and this 
creates a real problem. If the United States' top priority, as 
it should be, is to promote freedom and democracy in Hong Kong, 
it is very difficult to do so while relying on the framework 
that Beijing itself has developed for Hong Kong's governance. I 
can certainly understand and respect why Hong Kong democrats 
work within that framework. Certainly they do not mean to 
challenge Beijing's sovereignty and I do not think the United 
States does or anyone else does. But that does not preclude 
people from criticizing the mechanism that Beijing has put in 
place and the reality that this mechanism has created.
    I would suggest that we defer much too much to the language 
of ``one country, two systems.'' In fact there is one country, 
but the two systems is not nearly as distinct as many of us 
would hope, and I think that that is what Hong Kong's democrats 
are trying to bring about by asserting their democratic rights 
and that is what U.S. policy should also do. So in short, there 
is a bit of a contradiction. It concerns me.
    I am very pleased that Randy Schriver raised the attacks on 
the patriotism of Hong Kong democrats. I think it was essential 
that the United States, as a democratic country, speak up on 
that point. In no way does it imply interference in China's 
affairs.
    But at the same time, U.S. officials have to resolve this 
fundamental contradiction that they have been operating under 
since well before the Bush administration. For a long time, 
U.S. policy has been geared toward avoiding a confrontation 
with Beijing. I do not think a confrontation has to be such a 
scary thing. It is a truthful thing if the United States and 
other democratic countries that pledged to defend Hong Kong's 
rights and freedoms speak up for them and stop accepting that a 
system that Beijing has put in place is likely to lead to 
democracy. We hope that it might, but there are many ways in 
which Beijing has tried to ensure that it will not.
    So I would just leave it there.
    [The prepared statement of Ms. Bork follows:]

                    Prepared Statement of Ellen Bork

    I am grateful for the opportunity to speak here today about the 
struggle for democracy in Hong Kong and U.S. policy on that subject. It 
has been my privilege to work in support of Hong Kong's democrats and 
rights activists in a number of positions, including as a staffer on 
this committee under the chairmanship of Senator Helms, and for the 
Hong Kong Democratic Party and Its chairman Martin Lee.

                              THREE POINTS

    There are three points I would like to make. First, this year will 
be decisive for the Future of freedom and democracy In Hong Kong. Hong 
Kong's people have expressed their desire for an elected legislature 
and chief executive in every way possible--through elections, marches 
and opinion polls. Meanwhile, Beijing has laid down a tough line 
against democracy and started a campaign of character assassination 
against Hong Kong's pro-democracy camp. Beijing has even raised the 
specter of dismantling the Hong Kong legislature in the event that pro-
democracy candidates do well in upcoming legislative elections in which 
30 out of 60 seats will be determined by democratic methods.
    Second, the attractive-sounding ``one country, two systems'' 
formula for Hong Kong's governance under mainland sovereignty, is a 
fiction. The international community, including the United States, sees 
in the ``one country, two systems'' formula the prospect that Beijing 
will tolerate democratic expansion in Hong Kong. In fact, Beijing never 
intended to grant real autonomy and maintains significant control over 
the most important levers of power. By its own account full democracy 
is not in the cards any time soon.
    Third, the U.S. must stop accepting Beijing's blueprint for Hong 
Kong. It flies in the face of President Bush's support for democracy 
throughout the world. Beijing's position that democracy is not possible 
in Hong Kong and its attacks on Hong Kong democrats as ``unpatriotic'' 
must be a priority for U.S. policy. Now that Beijing has indicated that 
democracy is not possible for decades, the U.S. has a choice to make--
either to try to advance democracy now, or to acquiesce to a situation 
that has grave consequences for Hong Kong, for the rest of China and 
for Taiwan.

                     CRITICAL MOMENTS FOR HONG KONG

    Last July, Hong Kong was swept up in the most dramatic events since 
its 1997 return to Chinese rule. Well over one-half million people 
marched to protest new national security laws that would threaten 
rights of association, press, and religion. This pressure led to the 
withdrawal of the legislation and the resignation of two very unpopular 
government officials, one of whom was deeply involved in the national 
security laws and widely known to be hostile to democracy and civil 
liberties. A few months later, Hong Kong's democrats made a strong 
showing in low-level elections for the district councils.
    Popular discontent in Hong Kong over Beijing's efforts to implement 
the new national security laws--the effort to impose them was kicked 
off by Qian Qichen, the vice premier--went much deeper than the 
specific laws themselves or the unpopular officials Beijing installed 
to run Hong Kong. ``People in Hong Kong can see that the problem isn't 
just with an individual, but with the structure,'' Yeung Sum, an 
elected legislator and chairman of the Hong Kong Democratic party, told 
The Washington Post. Hong Kong's people have shown once again, as they 
often have, that they favor full democracy now. Poll results taken by 
the respected Hong Kong Transition Project at Hong Kong Baptist 
University show the same thing.
    Beijing sees the upcoming elections in September for the 
Legislative Council as a threat. Thirty of 60 seats will be up for 
democratic election. Their political party allies--the Liberal Party 
and the Democratic Alliance for the Betterment of Hong Kong have lost 
support politically owing to their stance on the national security 
legislation. The leader of the DAB, Tsang Yok Sing resigned after the 
party fared poorly in the district councils elections. While James Tien 
of the Liberal Party gained some favor for withdrawing support for the 
national security legislation at a critical moment, he has recently 
endorsed the mainland position that democrats are unpatriotic.
    In response, Beijing has launched an intimidation campaign based on 
accusations of disloyalty against Hong Kong's democrats. To be sure, 
Beijing's methods in Hong Kong are different than they are on the 
mainland. There, members of Falun Gong, the China Democracy Party and 
labor activists and Tibetans and Christians find themselves arrested, 
locked up, and even tortured. Just last week, two protesters were 
arrested and charged with allegedly obtaining state secrets, a charge 
which the organization Human Rights in China believes is related to 
their efforts to document an ongoing crackdown on unofficial Christian 
churches.
    However, while its methods in Hong Kong are so far much less harsh, 
Beijing is still determined as it is on the mainland. Members may have 
read Tuesday's story in The Washington Post about Beijing's arrests of 
Hong Kong residents with British citizenship. It is impossible to say 
that Hong Kong's democrats are not in danger of some form of punishment 
or imprisonment or what kinds of charges they may face for their 
activities in the near future.

             WHAT ``ONE COUNTRY, TWO SYSTEMS'' REALLY MEANS

    Most analyses of Hong Kong concentrate on trends, asking whether 
Beijing is interfering or not and whether Hong Kong is less free than 
it was under British rule. While I would submit that the trend in Hong 
Kong is not good, and Beijing is interfering in Hong Kong affairs, I 
would like to suggest that members look at the situation in Hong Kong 
another way: Beijing never intended Hong Kong to enjoy a high degree of 
autonomy and definitely not democracy. Indeed, from the beginning 
Beijing set up Hong Kong's system of governance to prevent that.
    In the terms of Sino-British Joint Declaration, a treaty signed In 
1984, China offered guarantees for Hong Kong's autonomy and freedom, 
including an independent judiciary, a free market, civil liberties, 
freedom of the press and a ``legislature constituted by elections.'' Of 
course, in the lexicon of the Chinese Communist Party, democracy and 
elections mean very different things than they do in Western usage. 
Great Britain and China agreed that these guarantees would be codified 
in a Basic Law, drafted by the Beijing-controlled committee and enacted 
by the National People's Congress without the consent of the Hong Kong 
people.
    The system Beijing set up through the Basic Law gives itself 
crucial direct and indirect controls over Hong Kong's affairs--
including the executive branch, the legislature and important aspects 
of the judiciary. The chief executive is appointed by Beijing. As a fig 
leaf, there is a choice made by a small ``Election committee'' of 800 
people overwhelmingly dominated by pro-Beijing appointees. In visits to 
the United States, Tung Chee-hwa has told Members of Congress and 
others that he won a hard fought election campaign. In fact, the 
indication that he had won his first term came when Jiang Zemin singled 
him out for a handshake in a meeting in the Great Hall of the People.
    China also has indirect control of the legislature. Only twenty-
four of its 60 seats are currently selected through democratic 
elections. Thirty seats are assigned to functional constituencies that 
are chosen by business, professional and other groups, many of which 
are very small. Six seats are chosen by the ``Election Committee.'' 
While a few of these constituencies return pro-democracy candidates, 
most are dominated by very conservative, business people who take 
Beijing's line.
    In the next elections in September, there will be 30 seats up for 
democratic election, and 30 for the functional constituencies. Beijing 
has already threatened to dissolve the legislature if it does not like 
the outcome of the elections. Incidentally, when China took control of 
Hong Kong, it dissolved the outgoing legislature constituted under the 
British, undid the very minor reforms of Chris Patten, and on July 1, 
1997, installed the ``Provisional Legislature.'' One of the things this 
appointed legislature did was to revise the election law to establish a 
system of proportional representation that was designed to reduce the 
power of pro-democracy candidates.
    As for the future, Beijing's Basic Law has does not provide for 
full democracy. Indeed, there are various barriers within the Basic Law 
to achieving democracy, including the provision that any changes to the 
methods for choosing the chief executive and constituting the 
legislature must get a two thirds vote of the current legislature and 
the approval of the sitting chief executive.
    There is quite a lot of discussion going on in Hong Kong now about 
what Deng Xiaoping, and the legal experts who drafted the Basic Law, 
thought or meant about its provisions. One of the legal experts 
recently said, Hong Kong might have democracy ``in the 2040's'' or even 
``the 2030's, but absolutely not as soon as 2007.'' As the Oxford 
scholar Steve Tsang has written, ``To a Westerner, the idea of Hong 
Kong people administering Hong Kong within the framework of `one 
country, two systems' may imply that after 1997 Hong Kong will be free 
to run its own domestic affairs with no interference from Beijing as 
long as PRC sovereignty is acknowledged. Such an interpretation is 
totally unacceptable to Beijing.''
    However, U.S. policymakers and Members of Congress should not 
engage in this exercise too much. It is highly problematic for 
democratic politicians and policymakers to rely on the intent of senior 
cadres of the Chinese Communist Party in trying to decide what should 
or should not happen in Hong Kong. Which brings me to my third point--
that Washington has relied much too heavily on the Basic Law and 
China's own framework for governing Hong Kong in formulating U.S. 
policy.

                    CRITICAL MOMENT FOR U.S. POLICY

    U.S. policy toward Hong Kong has reached a critical moment. For 
many years, the U.S. has accepted Beijing's blueprint for Hong Kong's 
political development. In fact, Secretary Powell did so just yesterday 
at the Heritage Foundation when he expressed his desire that Hong 
Kong's ``political culture continue to thrive under the `Basic Law.' '' 
On the few other occasions on which top U.S. officials have spoken 
publicly about Hong Kong, they too have linked U.S. support for 
democracy to the provisions of the Basic Law.
    This is part of a pattern. The U.S. has for many years tried to 
avoid confronting Beijing over Hong Kong. Before the handover, the U.S. 
felt that it could stay in the background while Great Britain 
negotiated its way out of Hong Kong. The U.S. tried to take the 
position that while it wanted Beijing to respect its commitments in the 
Joint Declaration, the U.S. had no claim to be able to determine that 
any particular Chinese action violated those commitments. On one 
occasion, assistant secretary of state Winston Lord told this 
committee, ``The United States does not offer legal interpretations of 
agreements to which it is not a party.'' This overly legalistic 
approach enabled the U.S. to stay silent at important times.
    To be fair, the U.S. does more than any other country to expresses 
support for the ideal of democracy in Hong Kong. President Bush raised 
Hong Kong with General Secretary Jiang Zemin during their meeting at 
the president's ranch In Texas when the effort to pass the national 
security laws was just getting underway. But it was also problematic 
that President Bush did not raise Hong Kong with General Secretary Hu 
Jintao at the last G-8 meeting. In other words, the U.S. has a short 
term approach to Hong Kong, which tries to mitigate the worst 
developments, while not challenging Beijing on the big picture, or 
pursuing a democracy agenda of its own.
    A stronger response, and a broader vision, is necessary. First, the 
U.S. should respond to the intimidation campaign against democrats. Not 
doing so lends credence to the attacks on people, including Martin Lee, 
for associating themselves with democracy and seeking support from the 
international community of democracies, including the United States.
    Second the U.S. must resolve the inherent contradiction in its 
policy. The U.S. cannot advance democracy in Hong Kong according to 
terms set forth and interpreted by Beijing. Questioning the provisions 
of the Basic Law is not a challenge to Beijing's sovereignty, no matter 
how much Beijing suggests that. However, so long as Washington seeks to 
advance democracy within the constraints set down by Beijing, two 
things will be true: democracy will not advance, and Hong Kong's 
democrats will face serious jeopardy.

    Senator Brownback. That is a good thought.
    Mr. Tkacik.

  STATEMENT OF JOHN J. TKACIK, JR., RESEARCH FELLOW IN CHINA 
                POLICY, THE HERITAGE FOUNDATION

    Mr. Tkacik. Thank you very much for having me here, Mr. 
Chairman. I first want to say how much I admire you and the 
leadership you have shown in forming American policy in Asia, 
and I hope that this panel continues that.
    One of the things I would like to do at the beginning is 
pick up on what both Jim and Ellen said, which is the United 
States policy embraces Beijing's terms, when we look at China 
policy, when we look at Hong Kong policy, when we look at 
Taiwan policy even. Hence, we wring our hands about whether 
Beijing is being fair to attack Hong Kong political figures as 
being unpatriotic because let us remember, patriotism in 
Beijing does not mean love of China. Patriotism in Beijing 
means love of and loyalty to the Chinese Communist Party. That 
is their business. But let us make sure we are looking at this 
in the proper framework.
    Second, ``one country, two systems'' does not mean that 
Hong Kong is free to run its own affairs. ``One country, two 
systems'' merely means that Beijing will treat Hong Kong pretty 
much the same way it treats Tibet or Xinjiang.
    I was asked to put the Hong Kong issue in a broader 
strategic perspective. I have a six-page statement and I was 
sort of hoping I could read it, but what I will say is that the 
two major American concerns I think with Hong Kong are being 
eroded.
    One is 15 years ago, America saw Hong Kong as a beacon of 
freedom to China, and I have to say that over the last 7 years, 
we have seen that flicker out. It is a very dimming light, if 
it still shines at all in China.
    Second, I would say anybody that looked at the ``one 
country, two systems'' model has to be embarrassed by what is 
going on in Hong Kong. Anybody that argued that Hong Kong's 
successful transfer to Chinese sovereignty under the ``one 
country, two systems'' model would reassure democratic Taiwan 
that it too would be free to thrive and run its own affairs has 
to be completely discredited at this point.
    The real question I think American leaders have to ask 
themselves now is what are you going to do about it. What is 
America's executive leadership, what is its legislative 
leadership going to do? And I am not sure there is a whole lot 
left to be done for Hong Kong's people at this point. Hong Kong 
is already under Chinese sovereignty. There is little that you 
can do beyond the mere symbolic. If the United States, however, 
is serious about giving the people of Hong Kong the leverage 
they need in their bid for a government responsive to the 
people via universal suffrage, I think our leadership in the 
United States has to take some kind of action, not just words.
    I suggest substantively that the administration and 
Congress could, for instance, make China's implementation of 
its promises for democratization in Hong Kong a touchstone of 
our overall strategy toward China. Unfortunately, I am afraid 
that the United States really does not have a clear strategy 
toward China aside from watching and waiting. I was heartened 
by Secretary Powell's comments on Tuesday at the Heritage 
Foundation encouraging China to become democratic but there was 
no ``if not, then what do you do?''
    One thing you could do is adopt Secretary Powell's language 
on Taiwan, for instance. He said many times whether China 
chooses peace or coercion to resolve its differences with 
Taiwan will tell us a great deal about the kind of role China 
seeks with its neighbors and seeks with us. I think if you 
substitute Hong Kong into that, you have a very effective 
symbolic gesture.
    One thing that is I think concrete that you could do, that 
the administration and Congress could do I think, is refrain 
from calling China a ``partner in diplomacy to meet the dangers 
of the 21st century.'' This is how the administration refers to 
China now despite China's massive military buildup opposite 
Taiwan. I think you have to use sticks as well as carrots with 
the Chinese. I think it is important that the United States 
continue to reiterate its strong support for the Hong Kong 
people.
    Give substance to your verbal expressions of concern. I 
think a persuasive measure would reside in an informal 
cessation of Presidential or Vice Presidential visits to or 
from China until progress on Hong Kong's democratization in the 
spirit, not the letter, of the UK-PRC Joint Declaration and the 
Basic Law is clear. The Congress I think could also adopt a 
similar stance, either explicitly in a resolution that House 
and Senate leaders refrain from visits to China while Hong 
Kong's continued processes of democratization is in question, 
or implicitly as senior members find it ``inconvenient'' to 
visit China or to host visits from Chinese counterparts while 
Hong Kong's democratization is in question.
    There is another small demonstration of concern. I think 
Congress should, indeed, mandate the Commerce Department to 
reexamine the integrity of our dual-use and advanced technology 
exports to Hong Kong. I think such a reexamination might 
reflect that Hong Kong's law enforcement agencies are, indeed, 
capable of maintaining the insulation between the SAR and China 
that is necessary to satisfy the United States that such 
technologies are protected from improper use or re-export. But 
then again, it might not. You will never know, but I think it 
is an important issue.
    I think finally we just have to be realistic in our China 
policy. China's leaders must be made to see that, like Taiwan, 
how China chooses to realize its pledges on universal suffrage 
and democracy for Hong Kong will tell us a lot about China's 
respect for democracy. At some point, the scales must fall from 
our eyes and China must be dealt with as she is, not as we hope 
she might possibly become some day.
    In sum, I would just raise one last point. I think it was 
today that Hong Kong's Chief Executive, C.H. Tung, asked what 
is unpatriotic, and his answer was ``listen to one's words, 
watch one's behavior.'' ``One country, two systems'' is a 
family affair. It is a country's affair. A country's affair. It 
is our own affair. Foreigners should not interfere, nor should 
foreign interference be tolerated.
    My point is that this is not a matter of patriotism. This 
is a matter I think of freedoms and it is a matter of the 
commitments that China made not just to the people of Hong 
Kong, not just to the British Government, not just in a 
declaration that now resides in the United Nations. I think it 
made an implicit contract with the international community, and 
I think it is up to us to demonstrate our support for the 
people of Hong Kong.
    Thank you very much.
    [The prepared statement of Mr. Tkacik follows:]

               Prepared Statement of John J. Tkacik, Jr.

    Chairman Brownback and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
U.S. policy towards Hong Kong in the broad context of America's 
interests in China and East Asia. Mr. Chairman, your outstanding 
efforts to put the expansion of freedom and democracy at the top of 
America's agenda and to help repressed peoples of countries like Iran, 
North Korea, and Burma, are a tremendous contribution to American 
foreign policy. I hope that today's hearing on Hong Kong will serve to 
remind Beijing's leaders that their commitments to preserve Hong Kong's 
freedoms were not just to the people of Hong Kong but enshrined in an 
international agreement that is deposited with the United Nations, and 
that the world's democracies have a stake in the survival and success 
of Hong Kong.

                   THIRTY YEARS OF HONG KONG WATCHING

    My first professional glimpses of Hong Kong came thirty years ago 
as a Vice Consul based in Taipei working on U.S. visa and immigration 
matters, and after serving nearly a decade in Taiwan and China, I 
returned to Hong Kong as Deputy Chief of the Consular Section at the 
U.S. Consulate General. After the Tiananmen Incident in June 1989, I 
was the Deputy Consul General in Guangzhou, with responsibility for all 
State Department political and economic reporting from south China, 
including the Special Economic Zones (SEZs) of Shenzhen and Zhuhai 
which are adjacent to Hong Kong and Macao in China's prosperous Pearl 
River Delta. From Guangzhou, I was transferred to the State Department 
in Washington where I was Chief of China Analysis in the Bureau of 
Intelligence and Research. I retired from the Foreign Service in 1994 
and later worked for a year as a vice president of RJR Nabisco China 
based in Hong Kong, and then did private consulting work on China 
business opportunities. I have been with The Heritage Foundation since 
June 2001 as a resident fellow in China research.
    I tell you this because I have watched Hong Kong evolve from the 
West's peephole on Maoist China in the 1960s and 1970s, to China's most 
important financial, trade and shipping center in the 1980s and 1990s. 
Since the Retrocession of Hong Kong to China in 1997, I have seen 
Shanghai move in to rival Hong Kong as China's commercial nerve center, 
and I expect Hong Kong's importance in East Asia to diminish as two 
dynamics take place.
    First, the Central People's Government in Beijing will continue to 
make Shanghai ever more attractive to international businesses--not to 
mention Chinese commercial enterprises--with ever expanding 
telecommunications, transport, shipping, aviation, electric power and 
water infrastructures.
    Second, Hong Kong will gradually merge with China's adjacent 
Special Economic Zones and become seamlessly integrated with the Pearl 
River Delta economy and with South China's political and defense 
structures.

            HONG KONG, A DIMMING BEACON OF FREEDOM TO CHINA

    If these two processes continue unchecked, it will likely mean that 
by the year 2047, Hong Kong will have merged totally with China, 
politically and strategically as well as economically and socially. The 
ultimate effect, all things being equal, will be the disappearance of 
Hong Kong as an entity distinct from the rest of the People's Republic. 
Of course, this was not what was contemplated by the United Kingdom, 
nor the people of Hong Kong or the international community at the time 
the UK-PRC Joint Declaration of 1984 was signed. At the time, China's 
leader Deng Xiaoping reassured the world that after 1997, ``Hong Kong 
People would rule Hong Kong,'' and that for ``fifty years, there would 
be no change.''
    Since 1997, however, China's policies toward Hong Kong have 
undermined both those pledges. The other witnesses today will certainly 
give more eloquent testimony than I can to that effect. My modest 
contribution to this hearing will be to consider some of the ways that 
this affects America's broader strategic interests in East Asia.
    First and foremost, America's primary strategic interest in Asia 
must be the democratization of China. As Secretary of State Colin 
Powell said Tuesday March 2 in his B.C. Lee lecture at The Heritage 
Foundation, ``We believe, too, that if the democracies of Asia can be 
consolidated and strengthened, and if new Asian democracies join them, 
then when China comes inevitably to accept systematic political reform, 
its leaders will see democracy in the same light that they have seen 
market economics.''
    15 years ago, China watchers in the United States, both in and out 
of government, saw Hong Kong as a beacon of freedom for China and an 
inspiration to political reform. Indeed, their hopes were justified by 
the vibrant political debates in China, especially in South China where 
I was reporting, in the year or so before the Tiananmen crackdown. Not 
only had Hong Kong's mature legal system been an anchor for contracts 
and business agreements that facilitated outside investment in the 
Pearl River area, but Hong Kong's legal guarantees for broader civil 
and human rights began to change the way Chinese thought about 
governance. Hong Kong's influence was subtle.
    When I first arrived in Guangdong, Hong Kong's Cantonese language 
television and radio programs were wildly popular, and South China's 63 
million Cantonese speakers vastly preferred Hong Kong programming to 
domestic Chinese broadcasts. I recall watching a rerun of an American 
detective series called ``Hunter'' in which a malefactor was collared 
by the police and read his ``Miranda'' rights, the right to remain 
silent, to have an attorney, and the caution that anything said could 
be used against him. The program was faithfully dubbed into Cantonese 
with Mandarin subtitles. And by the time I left Guangzhou three years 
later, this sort of exposure to Western legal procedures was standard 
fare for South China television viewers.
    But it was about that time that the Central Government in Beijing 
began to take measures that ensured Hong Kong's ``well water'' would 
not interfere with China's ``river water'' after 1997. China resolutely 
prohibited British attempts to push Hong Kong's political institutions 
toward full, universal suffrage, and in the end even disbanded the last 
Hong Kong Legislative Council that was supposed to provide the 
``through-train'' across the July 1, 1997 transition to Chinese 
sovereignty. After 1997, self-censorship in Hong Kong's news media 
became commonplace (although Hong Kong still boasts several popular 
printed journals that continue a lively political debate, even on the 
ultra-taboo topic of Taiwan). Television and radio programming is tame 
and even halfway daring programming is punished--by the media owners 
themselves.
    In 2002, at Hong Kong's flagship English newspaper, the South China 
Morning Post, for example, the independent-minded editor, Jonathan 
Fenby, was replaced, followed by the features editor, Charles Anderson, 
and then Willy Lam, the China editor and prominent China-watcher, who 
was replaced by an editor trained at the mainland's China Daily. Other 
dismissals followed. The paper's Beijing correspondent, Jasper Becker 
was fired for ``insubordination'' when he described Chinese President 
Jiang Zemin's unimpressive performance at a joint press conference with 
President Bush.
    Last year, the Hong Kong Broadcasting Authority fined a popular 
talk-show host for expressing the opinion that the city's deputy 
director of housing was a ``dog.'' Multinational satellite TV 
corporations carefully water-down their Chinese language programming 
out of Hong Kong to permit their transmission into China. And proposed 
anti-sedition legislation under ``Article 23'' of Hong Kong's Basic Law 
would have permitted the Hong Kong government to silence a journalist 
who questioned the government's mishandling of the SARS epidemic.
    The latest controversies over the ``Article 23'' legislation and 
demands for constitutional reforms in Hong Kong are now under full-
scale assault from Beijing and Beijing's appointees in Hong Kong's 
government. In short, Hong Kong has not proved to be the beacon of 
democratic values into China that we once thought it might be. if 
Beijing's tactics are successful in cowing legitimate dissent in Hong 
Kong, and if the international community sits on its hands in 
acquiescence, China will instead become the beacon of authoritarian 
control to Hong Kong.

                      ``ONE COUNTRY, ONE SYSTEM''

    Similarly, those who argued that Hong Kong's successful transfer to 
Chinese sovereignty under the so-called ``one Country, two systems'' 
model would reassure democratic Taiwan that it too would be free to 
thrive and run its own affairs in a similar ``one country, two 
systems'' structure, must surely be embarrassed.
    When I was in Guangzhou in 1992, Beijing's overt strategy for the 
Shenzhen SEZ was ``internationalization.'' The Shenzhen SEZ could claim 
special privileges because ingress and egress from the rest of China 
involved transiting a ``soft line'' border-crossing between the SEZ and 
Guangdong Province. Beijing's ultimate goal was to strengthen that 
``soft line'' while lowering the ``hard line'' between Hong Kong and 
the SEZ.
    By 2002, the Hong Kong government began to ease barriers to 
economic flows with mainland China, particularly those affecting the 
flow of ``people, cargo, capital, information and services'' from China 
back into Hong Kong. As such, Hong Kong's labor force, which lost 
650,000 manufacturing jobs to mainland China over the past decade, 
began to feel the pain of integration with China's lower-cost 
manufacturing and services base. Integration will also equalize 
property values (further depressing Hong Kong's real estate market), 
enable Chinese from Shenzhen to compete directly in the Hong Kong labor 
market, and begin the process of gradually integrating Hong Kong and 
Shenzhen into one seamless zone.
    Many Hong Kong businesses still urge the government to streamline 
traffic across the border and better coordinate infrastructure 
development with Shenzhen. Last year, China began to implement a 
``Closer Economic Partnership Agreement'' (CEPA) which basically sealed 
Hong Kong's demise as a manufacturing base. But with it immigration 
rules barring Chinese workers from migrating to Hong Kong were relaxed, 
so that Chinese were treated equally with all other foreigners. 
Restrictions on Chinese tourists coming to Hong Kong were eased and the 
amount of money they could spend in Hong Kong was more than doubled. 
The result has been a dramatic influx of cash that has returned the 
color to Hong Kong's anemic economy, but at the same time has 
encouraged an inflow of PRC citizens.
    The degree of integration between Hong Kong and the rest of China 
raises serious concerns that blurring the line makes it increasingly 
difficult to justify keeping the two jurisdictions separate for export 
purposes, particularly the export of advanced technology products that 
have dual civilian-military uses. Such separate treatment is authorized 
by Section 103(8) of the Hong Kong Policy Act of 1992. It is no secret 
that People's Liberation Army front companies operate extensively in 
Hong Kong, and I have heard concerns that they make use of Hong Kong's 
special status to import denied technology that is unavailable via 
other channels. Because export licenses are not required for advanced 
technology shipments to Hong Kong, there is no record-keeping, much 
less verification or follow-up, on such exports.
    Although, I have heard nothing but praise from U.S. officials who 
interact with their Hong Kong counterparts in the Customs and Excise 
Service and Trade and Industry Department. It is too much to ask even 
of these dedicated and professional law enforcement officers to enforce 
Hong Kong's regulations against the interests of Beijing's military and 
security services.
    I have heard only the highest praise for the professionalism and 
cooperation of Hong Kong's Joint Financial Intelligence Unit in sharing 
its intelligence on money-laundering. Indeed, Hong Kong's participation 
in the Financial Action Task Force's Asia/Pacific Group on Money 
Laundering and the Egmont Group of financial intelligence units. Hong 
Kong has proven itself to be the Asian linchpin for terrorism-related 
money-laundering intelligence.
    In general, Hong Kong's participation in international criminal, 
terrorism and narcotics intelligence has set the standard for Asia. 
Some argue that Hong Kong's participation has also resulted in more 
professional participation by China, although the State Department's 
latest report on ``Money Laundering and Financial Crimes'' indicates 
that China's cooperation in such activities remains comparatively weak.

                               CONCLUSION

    Following Hong Kong's 1997 handover to China, the Special 
Administrative Region suffered twin blows from the Asian Financial 
Crisis and the 2001 global recession. Its manufacturing base has 
basically migrated to China, its position at the center of Asian 
finance has been eroded by steady competition from Singapore, and its 
role as the ``Gateway to China'' has been supplanted by Shanghai. There 
is a marked trend toward integrating the Shenzhen SEZ with Hong Kong 
via ``internationalization'', the CEPA and the lowering of immigration 
and customs barriers with China. China has begun the process of 
imposing its defense, internal security and intelligence priorities on 
Hong Kong via the so-called ``Article 23'' legislation. Finally, the 
idea of ``Hong Kong People Ruling Hong Kong'' has been debased by 
Beijing's reneging on the spirit of its pledges in the Basic Law to 
implement ``universal suffrage'' in the period ``after 2007''.
    Hong Kong is already fully integrated into China with the CEPA, and 
all indications are that the trend is toward a Hong Kong SAR that is 
integrated into China politically. At bottom, this is the essence of 
``one country, two systems.''

                            RECOMMENDATIONS

    I am not sure there is much left that can be done for Hong Kong's 
people. Hong Kong is already under Chinese sovereignty, and there is 
little to be done that goes beyond the merely symbolic. If the United 
States is serious about giving the people of Hong Kong leverage in 
their bid for a government responsive to the people via universal 
suffrage election, then our political leaders must take action.
    (1) Substantively, the Administration and Congress should:

  <bullet> Make China's implementation of its promises for 
        democratization in Hong Kong a touchstone of our overall 
        strategy toward China. Unfortunately, the Administration does 
        not seem to have a clear strategy for China aside from watching 
        and waiting.

  <bullet> Adopt Secretary of State Powell's language on Taiwan as a 
        model. The Secretary has declared that ``whether China chooses 
        peace or coercion to resolve its differences with Taiwan will 
        tell us a great deal about the kind of role China seeks with 
        its neighbors and seeks with us.''

  <bullet> Refrain from calling China a ``partner in diplomacy to meet 
        the dangers of the 21st Century.'' This is how the 
        Administration now refers to China despite China's massive 
        military build-up opposite Taiwan.

  <bullet> Use sticks as well as carrots. Just this past Tuesday 
        Secretary Powell noted ``half a million brave people marched 
        through the streets of Hong Kong to peacefully oppose 
        legislation that would have curbed their civil liberties,'' and 
        proclaimed that ``it is important to all those who cherish 
        democracy that Hong Kong remain open and tolerant, and that its 
        political culture continue to thrive under the `basic law' with 
        China.'' But he offered no ``or else.''

    (2) Give substance to your verbal expressions of concern. A 
persuasive message would reside in an informal cessation of 
Presidential or Vice Presidential visits to or from China until the 
progress of Hong Kong's democratization in the spirit--not the letter--
of the UK-PRC Joint Declaration and the Basic Law is clear. The 
Congress could also adopt a similar stance, either explicitly in a 
resolution that House and Senate leaders refrain from visits to China 
while Hong Kong's continued processes of democratization is in 
question, or implicitly as senior members fine it ``inconvenient'' to 
visit, or to host visits from Chinese counterparts.
    (3) As another small demonstration of concern, the Congress should 
mandate that the Commerce Department reexamine the integrity of our 
dual-use and advanced technology exports to Hong Kong. It may reflect 
that Hong Kong's law enforcement agencies are indeed capable of 
maintaining the insulation between the SAR and China necessary to 
satisfy the United States that such technologies are protected from 
improper use or reexport.
    (4) Finally be realistic in our China policy. China's leaders must 
be made to see that, like Taiwan, ``how China chooses to realize its 
pledges on universal suffrage and democracy for Hong Kong will tell us 
a great deal about China's respect for democracy in the rest of Asia.'' 
At some point, the scales must fall from our eyes, and China must be 
dealt with as she is, not as we hope she might possibly become someday.

    Senator Brownback. Thank you very much. Because the vote 
has been called, I will not be able to ask any questions of 
this panel. I do appreciate very much your presentations.
    I want to say in conclusion I have been to Hong Kong 
several times. It is a beautiful city. It is and can be a 
leading city. I think it is going to be key to how we frame our 
policy toward it in the future and recognize the difficulties.
    I look to this panel and to others to advise us if we need 
to take steps to amend the Hong Kong Policy Act, the 1992 
policy act, to try to frame and put forward more of our 
concerns on universal suffrage. I am pleased with the 
administration's aggressive statements. I think those are 
important in our long-term relationship with Hong Kong. I think 
what happens in Hong Kong is going to be viewed and watched 
around the world, and it is very important that it move toward 
universal suffrage by 2007. The people of Hong Kong are ready 
for it. It does not threaten Beijing. It needs to happen and we 
need to put strength behind our words in saying and doing that 
as well.
    I just want to thank the panelists. I particularly want to 
express my thanks to the people who traveled from Hong Kong to 
be here and suffered the barbs and arrows that you have to 
simply stand for freedom and what is put forth in the Basic 
Law. Godspeed to you in this effort of the dream of mankind, 
which is to be free, and carrying that on forward.
    The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee adjourned, to 
reconvene s subject to the call of the Chair.]

                                 <all>

</pre></body></html>
